Report No. DODIG-2012-052                 February 8, 2012




    Report on the Program and Contract Infrastructure
    Technical Requirements Development for the Guam
                  Realignment Program
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/Inspections/TAD/ or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DNS 644-8937) or fax (703) 604-8932.

Suggestions for Assessments
To suggest ideas for or to request future reviews, contact the Office of the Deputy
Inspector General for Policy and Oversight at (703) 602-1017 (DSN 662-1017). Ideas
and requests can also be mailed to:

                         Office of the Deputy Inspector General
                                for Policy and Oversight
                        Department of Defense Inspector General
                          4800 Mark Center Drive, Ste. 15K28
                              Alexandria, VA 22350-1500
Acronyms and Abbreviations
AFB            Air Force Base
AIP            Agreed Implementation Plan
DAR            Defense Access Road
DOD            Department of Defense
DOD IG         Department of Defense, Office of Inspector General
EIS            Environmental Impact Statement
FAR            Federal Acquisition Regulation
FCC            Federal Communications Commission
FHWA           Federal Highway Administration
FY             Fiscal Year
GAO            Government Accountability Office
GRN            Guam Road Network
GWA            Guam Waterworks Authority
ICG            Interagency Coordination Group
JFY            Japanese Fiscal Year
JRM            Joint Region Marianas
H.R.           House of Representatives
MARAD          Maritime Administration (Department of Transportation)
NAVFAC         Naval Facilities Engineering Command
  (PAC)           (Pacific)
NCTS           Naval Computer and Telecommunications Station
NEPA           National Environmental Policy Act
NPDES          National Pollutant Discharge Elimination System
OPNAV          Operational Navy
UFC            Unified Facilities Criteria
U.S.           United States
USC            United States Code
USDA           United States Department of Agriculture
USDOT          United States Department of Transportation
USEPA          United States Environmental Protection Agency
This page intentionally left blank
This page intentionally left blank
Report No. DODIG-2012-052 (Project No. D2010-D000PT-0212.000)                      February 8, 2012


              Results in Brief: Report on the Program and
              Contract Infrastructure Technical
              Requirements for the Guam Realignment
              Program

      What We Did
      The U.S. and the government of Japan agreed to realign U.S. and Japanese forces
      throughout the Pacific under the October 2005 agreement, “U.S.-Japan Alliance:
      Transformation and Realignment for the Future.” As part of this realignment effort, the
      U.S. and Japanese government agreed to relocate approximately 8,000 Marines and 9,000
      of their dependents from Okinawa to Guam by 2014. As a result of the realignment and
      additional increases in military personnel across Guam, it is estimated that Guam's
      current population of 171,000 will increase by an estimated 25,000 active duty military
      personnel and dependents to 196,000. In addition, the realignment will require additional
      workers to temporarily move to the island, including non-defense personnel, Department
      of Defense (DOD) contractors, and transient military personnel. The U.S. military
      realignment will substantially impact Guam's community and infrastructure. On June 21,
      2011, it was acknowledged by the U.S. and Japan that the 2014 target date will not be
      met.

      We conducted this engineering review from May 2010 to April 2011. The objective of
      the project was to report on the development of program and contract infrastructure
      technical requirements to include cost estimates and budgets for the Guam Realignment
      Program. Our review included seven areas of infrastructure making up what we call the
      composite program. The seven areas making up the composite program include: port,
      roads, power production and transmission, drinking water, wastewater, solid waste, and
      communications. We reviewed the existing infrastructure facilities on location, and
      reviewed the engineering improvements and supporting documentation. For each
      infrastructure area, the scope of our engineering review included: infrastructure area
      requirements, statutory and regulatory responsibilities, inclusion in the realignment
      program, cost estimates, budgeting, contract, schedule, and sustainment.

      What We Found and Recommend
      Commercial Port of Guam
      The Port of Guam’s cargo handling capacity must be upgraded to achieve the required
      throughput for the military realignment to the territory of Guam. All port improvements,
      as stated in the 2008 Memorandum of Understanding between the Government of Guam;
      the Port Authority of Guam; and the U.S. Department of Transportation, Maritime
      Administration (USDOT, MARAD), must be implemented within the 2007 Port Master
      Plan framework ranked in order of priority and should enable the Port of Guam to
      achieve the required throughput in support of the military realignment.

                                                  i
Finding. Given the fact that the Guam commercial port bulkhead is at significant risk of
major structural failure, the Department of Defense, Office of Inspector General (DOD
IG) issued a memorandum of condition to USDOT, MARAD addressing the serious
condition of the bulkhead. The memorandum advocated that MARAD work with the
Port Authority of Guam to implement the first priority of the Memorandum of
Understanding between MARAD and the Port Authority of Guam, signed November
2008, that stated, “Correct the deteriorated structural, utility and infrastructural facility
deficiencies and upgrade said facilities to modern safe standard.”

Roads
There are 49 Guam Road Network projects deemed significant to support the military
realignment. The road projects were chosen based on priorities and budget availability.
The Federal Highway Administration (FHWA) determined that when the FY 2010 and
FY 2011 Guam Road Network construction projects are completed, a sufficient amount
of road improvements will be in place to support the initial military realignment.

Power Generation, Transmission and Distribution
The Guam Power Authority’s current and future projected power supply after the
refurbishment of electrical systems are adequate to support the island-wide power
demand now and up to 2019.

Drinking Water
An additional 11.3 million gallons per day in potable water supply is required to meet the
projected DOD demands for the military realignment. The demand would be met by the
establishment of up to 22 new DOD water wells and rehabilitation to the existing wells.

Wastewater Treatment
Currently, the Guam wastewater plants do not meet primary treatment standards and lack
sufficient capacity due to poor conditions of the existing assets. The plants are currently
operating under two U.S. District Court stipulated orders. The U.S. Environmental
Protection Agency (USEPA) has required the Guam Waterworks Authority to install full
secondary treatments at both wastewater treatment plants.

Observation. NAVFAC PAC has identified $8 million in funding needed for the interim
wastewater capacity upgrade at the Northern District Wastewater Treatment Plant.
However, NAVFAC PAC has yet to obtain authority for obligating the identified funds.
If the NDWWTP cannot achieve and ensure consistent compliance, USEPA will not
adjust the permit limits to allow the additional flow needed to house the construction
workforce and the development of the military realignment.

Solid Waste
The territory of Guam and DOD have separate solid waste facilities. Previously, all
civilian solid waste on Guam was disposed of at the Ordot Dump facility. The Ordot
Dump facility is now full and closed. A new landfill – Layon Landfill – was constructed.


                                              ii
The DOD’s plan is to expand its recycling program and send all of its solid waste, with
the exception of construction and demolition waste, to Layon Landfill.

Communications
The government of Guam and DOD in Guam currently only have the basic 911 services
that cannot process a caller’s telephone number and location automatically.

Finding and Recommendation A. The telephone number and location information of
calls originating from inside DOD installations are not automatically provided to DOD
emergency 911 operators by the DOD installations' Public Safety Answering Points. We
recommend that the Navy’s, Operational Navy (OPNAV) N2/N6 prepare, complete, and
coordinate programs to upgrade the basic emergency 911 system to an Enhanced 911
system. Additionally, until the Enhanced 911 system is installed and operational, we
recommend advising incoming military personnel and their families, during island in-
processing, about the 911 limitations.

Finding and Recommendation B. The government of Guam has not implemented the
Enhanced 911 system. The current 911 system has reached the end of its life cycle for
maintenance support. This condition exists because the government of Guam uses the
"Enhanced 911 Emergency Reporting System Fund" for administrative personnel salaries
rather than the Enhanced 911 operation and maintenance. We recommend that OPNAV
N2/N6 work in conjunction with the government of Guam to install the Enhanced 911
system, as encouraged by U.S. Public Law 108-494, so off-base and on-base residents are
ensured a timely response.




                                           iii
Management Comments and Our Response
The USDOT, MARAD provided comments to the draft report. Comments from the
Department of the Navy on the communication findings were also responsive, however,
per the comments we have changed to whom the findings are addressed. Therefore, we
request additional comments from the Department of the Navy on those
recommendations. Please see the recommendations table below, on this page.

Recommendations Table

       Management                   Recommendations
                                   Requiring Comment
Department of the Navy,        Finding A: DOD Emergency
OPNAV N2/N6                    Communications
                               Finding B: Guam Emergency
                               Communications


Please provide comments by March 9, 2012.




                                         iv
Table of Contents
Introduction                                                                  1

      Objectives                                                             1
      Background                                                             1

I. Commercial Port of Guam                                                    5

      Finding: Port Bulkhead                                                 12

II. Roads                                                                    19

III. Power Generation, Transmission & Distribution                           27

IV. Drinking Water                                                           35

V. Wastewater Treatment                                                      39

      Observation: Interim Wastewater Capacity                               44

VI. Solid Waste                                                              45

      [Observation removed per Errata Memo Dated May 14, 2012]               51

VII. Communications                                                          53

      Finding A: Lack of Enhanced DOD Emergency Communications               59
      Finding B: Lack of Enhanced Guam Emergency Communications              62

VIII. Other Areas of Concern                                                 67

Appendices

      A.    Scope and Methodology                                            69
      B.    Memorandum of Condition Issued to Department of Transportation   73
      C.    Prior Coverage                                                   75
      D.    Summary of Comments and Our Response                             77

Management Comments

      Department of Transportation                                           80
      Department of the Navy                                                 82




                                          v
This page intentionally left blank
Introduction
Objectives
The objective of this project was to review the development of program and contract
infrastructure technical requirements for the Guam Realignment Program. The
engineering review included cost estimates and budgets for the harbor, roads, power
production and transmission, drinking water, wastewater, solid waste, and
communications. Each infrastructure area had several government entities and projects
involved; therefore, we referred the overall project as the composite program. Figure 1
shows the government entities and infrastructure areas that make up the composite
program. The results of this review are findings and observation in the respective areas
where issues were found. Findings are non-conformities which include
recommendations. Observations are without recommendations or a required response.
They are non-conformities, which fall outside the authority of the DOD IG to impose a
recommendation, or noted concerns without a violation of a criteria.

                        Figure 1. DOD IG Composite Program




Background
Origin of the Guam Realignment Program
Guam is an integral part of DOD's logistical support system and serves as an important
forward operational hub for a mix of military mission requirements. Guam provides
strategic flexibility, freedom of action, and prompt global action for Overseas
Contingency Operations, peace and wartime engagement, and crisis response. DOD
planned to begin the Guam military realignment construction during FY 2010 in order to
meet the desired realignment deadline of FY 2014 as indicated in the U.S.-Japan Security
Consultative Committee agreement reached on May 2006. Under the agreement, “United
States-Japan Roadmap for Realignment Implementation,” the U.S. and the government of
Japan agreed to realign U.S. and Japanese forces throughout the Pacific, referred to as the
“realignment roadmap.” As part of this realignment effort, the U.S. and Japanese
government agreed on February 17, 2009, to relocate approximately 8,000 Marines and
9,000 of their dependents from Okinawa to Guam by 2014. As a result of this relocation
and additional increases in military personnel across Guam, it is estimated that Guam's
current population of 171,000 will increase by an estimated 25,000 active duty military
                                            1
personnel and dependents (or 14.6 percent), to 196,000. In addition, the realignment will
require additional workers to temporarily move to the island including non-defense
personnel, DOD contractors, and transient military personnel. The U.S. military
realignment will substantially impact Guam's community and infrastructure. On June 21,
2011, it was acknowledged by the U.S. and Japan that the 2014 target date will not be
met; however, they committed to complete the realignment at the earliest possible date
after 2014.

The National Environmental Policy Act (NEPA) of 1969 requires Federal agencies to
examine the environmental effects of their proposed actions. On behalf of the DOD, the
Department of the Navy prepared a Final Environmental Impact Statement (EIS) in July
2010, to review the potential environmental effects associated with the proposed military
activities. Additionally, the Final EIS addressed proposed actions involving the Marine
Corps, the Navy, and the Army. In September 2010, the Record of Decision was issued
providing a decision on the course of action for each area of the Final EIS. As part of this
Record of Decision, Federal regulatory agencies committed to switching from a rapid
build-up approach to a phased approach. As a mitigation measure, the agencies are
referring the program as the ‘Adaptive Program Management’ and have established a
Civil-Military Coordination Council to implement the adaptive program management. It
will allow DOD to revise construction tempo and adjust the sequencing of construction
activities to directly influence workforce population levels and indirectly influence
induced population growth before significant environmental impacts occur or
infrastructure capabilities are exceeded.

Establishment of the Interagency Coordination Group (ICG) for
the Guam Realignment
U.S. Public Law 111-84, Section 2835 of the National Defense Authorization Act for FY
2010, designated the Inspector General of the DOD as the Chairman of the Interagency
Coordination Group (ICG) of Inspectors General for Guam Realignment. The first ICG
meeting occurred in November 2009. The objective of the meeting was to discuss the
legislative requirements and request information on oversight initiatives planned or
completed.

Members of the ICG include the Inspector General of the Department of the Interior and
other Inspectors General, as appropriate. The ICG recognizes that the realignment may
present challenges in operational readiness, quality of life, contract management,
contractor oversight, asset accountability and financial management. A key factor
impacting these challenges is the development of the realignment infrastructure on Guam.
The ICG is responsible for considering the risks associated with these challenges when
developing an oversight plan to effectively and efficiently utilize audit and investigative
resources. Also, the ICG will provide transparency and accountability to the American
people and U.S. military forces affected by the realignment.

Additionally, the ICG will provide an accounting of funds received from the government
of Japan. The ICG is committed to providing independent, objective, and relevant
information in achieving accountability, integrity, and efficiency in the Guam

                                             2
realignment. As the group moves forward, Congress and senior leadership throughout
the U.S. Government will use these oversight efforts to improve the economy and
efficiency of vital programs and operations, sustain the readiness of U.S. forces, and
minimize the impact on the citizens of Guam.

U.S. Public Law 111-84, Section 2835 goes on to state:

              It shall be the duty of the Interagency Coordination Group to conduct,
              supervise, and coordinate audits and investigations of the treatment,
              handling, and expenditure of amounts appropriated or otherwise made
              available for military construction on Guam and of the programs,
              operations, and contracts carried out utilizing such funds, including:

                  (A) the oversight and accounting of the obligation and expenditure
                       of such funds;
                  (B) the monitoring and review of construction activities funded by
                       such funds;
                  (C) the monitoring and review of contracts funded by such funds;
                  (D) the monitoring and review of the transfer of such funds and
                       associated information between and among departments,
                       agencies, and entities of the United States and private and
                       nongovernmental entities;
                  (E) the maintenance of records on the use of such funds to
                       facilitate future audits and investigations of the use of such
                       funds; and
                  (F) the monitoring and review of the implementation of the
                       Defense Posture Review Initiative relating to the realignment
                       of military installations and the relocation of military
                       personnel on Guam.

              Not later than February 1 of each year, the chairperson of the
              Interagency Coordination Group shall submit to the congressional
              defense committees, the Secretary of Defense, and the Secretary of the
              Interior a report summarizing, for the preceding calendar year, the
              activities of the Interagency Coordination Group during such year and
              the activities under programs and operations funded with amounts
              appropriated or otherwise made available for military construction on
              Guam. Each report shall include, for the year covered by the report, a
              detailed statement of all obligations, expenditures, and revenues
              associated with such construction.




                                                3
This page intentionally left blank




                 4
I. Commercial Port of Guam
                               Figure 2. Commercial Port of Guam




      Source: Photo courtesy of DOD IG


Background
Requirements
All materials needed for the realignment construction projects will be transported to
Guam by sea and enter through the Jose D. Leon Guerrero Commercial Port (Port of
Guam). As much as 90 percent of the day-to-day goods and supplies used by the island
of Guam pass through the port. However, the port’s cargo handling capacity must be
increased to achieve the required throughput for the scheduled military realignment.

Throughput is the average quantity of cargo and passengers that move through a port
during a given time period. The Port Authority of Guam’s support contractor, Parsons
Brinkerhoff International (PBI) originally performed the throughput requirements
analysis that was used in the Final EIS based on the realignment roadmap schedule.
Throughput requirements for the realignment are projected to be as high as 190,000
containers versus the 86,558 containers passing through the port in recent years; a peak of
291,400 tons of break-bulk (see page 6 for definition), versus 125,565 tons in recent
years; and a peak of 575,000 tons per year of bulk cement, versus 56,000 tons per year in
recent years.

Container Forecast. The Final EIS states that the projected average number of
containers to be handled each year during the period 2008 through 2018 is 153,636, with
                                              5
the maximum container number of 190,000 occurring in the year 2015. This quantity is
about twice the average number of containers handled during the period of 1995 through
2008 (86,558 containers). In the independent auditors’ report by Ernst and Young, “The
total number of containers handled in fiscal year 2010 has improved by 4% from 94
thousand containers in fiscal year 2009 to almost 98 thousand in fiscal year 2010.” The
container numbers are significantly lower than the projected average from the Final EIS.
U.S. Department of Transportation, Maritime Administration (USDOT, MARAD) will
use the container throughput from the Ernst and Young report for their final commercial
port improvement program implementation.

Break-bulk Forecast. Break-bulk shipments are comprised of a variety of materials that
cannot fit into containers or are more efficiently and/or economically handled in break-
bulk form. Examples of break-bulk materials include steel plates, sheets and pipes,
cement in super bags, asphalt in drums, motor vehicles, and bulk aggregates. The largest
part of the break-bulk shipments destined to Guam is the materials for the construction
industry.

The Final EIS states that the projected average tonnage of break-bulk cargo to be handled
each year during the period of 2008 through 2018 is 180,409 tons. This is about 45
percent more than the tonnage of break-bulk cargo that was handled during the period of
2003 through 2008 (125,565 tons). The maximum tonnage of break-bulk cargo to be
handled during the period of 2008 through 2018 is 291,400 tons in the year 2012.
However, as a result of the adaptive program management, the pace and sequencing of
the construction projects will likely be adjusted.

Bulk Cement Forecast. Bulk Cement is cement sold and transported in loose bulk form
instead of in bags. PBI calculated the forecasts for bulk cement. The analysis included
the military realignment for the next thirty years. The analysis established that the
number of bulk imports of cement shipments handled and processed by the port was
approximately 56,000 tons in 2009. During the realignment construction, bulk cement
volumes are expected to grow and peak in 2013. However, as a result of the adaptive
program management, it is likely that the pace and sequencing of the construction
projects will be adjusted.

Statutory and Regulatory Responsibilities
The government of Guam’s legislature passed Public Law 13-87 on October 31, 1975.
The law reestablishes the Port Authority of Guam as a government of Guam public
corporation and self-governing government agency. The Port Authority of Guam is
solely responsible for the operation and maintenance of the port.

Section 3512 of Federal Public Law 110-417 ‘‘Duncan Hunter National Defense
Authorization Act for Fiscal Year 2009’’ enacted on October 14, 2008, authorized the
USDOT Secretary, acting through the USDOT, MARAD Administrator to establish a
Port of Guam Improvement Enterprise Program. The program was intended to provide
for the planning, design, and construction of projects for the Port of Guam to improve
facilities, relieve port congestion, and give greater access to port facilities.

                                            6
Under the authority of U.S. Public Law 110-417, the Port Authority of Guam and
MARAD executed a Memorandum of Understanding in November 2008 outlining their
respective responsibilities in jointly executing the Port Modernization Program. The
Memorandum of Understanding outlined the cooperative arrangement whereby the
relationship and responsibilities facilitate the efficient and timely completion of the Port
Modernization Program. The Memorandum of Understanding ranks the program’s
objectives in the following priority:
    1. Correct the deteriorated structural, utility and infrastructural facility deficiencies
        and upgrade said facilities to modern safe standards.
    2. Execute the modernization program while maintaining levels of service to port
        users without disruption or deterioration of service levels.
    3. Perform the modernization program activities in a fashion that prevents loss of
        cargo throughput levels including both local and transshipment service.
    4. Modernize port equipment, cargo handling and other operational systems to
        standards equivalent to those in comparable, modern mainland and Asian
        container and break-bulk cargo ports.
    5. Perform the modernization program with phasing and scheduling consistent with
        the above to achieve anticipated port capacity requirements.

As part of Public Law 110-417, on October 1, 2009, the Treasury of the United States
established a fund in a separate account to be known as the ‘‘Port of Guam Improvement
Enterprise Fund.” Additionally, the House of Representatives (H.R.) 4899-5:
Supplemental Appropriations Act of 2010 Public Law 111-212, included a provision
authorizing the DOD to transfer up to $50 million to the Enterprise Fund. MARAD
received the $50 million from DOD on September 22, 2010.

Inclusion in Composite Program
The Port Authority of Guam initially planned a two-phased capital improvement project
for modernization, repair, and capacity improvements to the port. Phase I was later split
into two parts – Phase IA and Phase IB – mainly due to the source of available funding.
Currently, only Phase IA is being funded.

The Port Authority of Guam planned Phase IA to take into account the container, break-
bulk and bulk cement forecast cargo requirements to ensure the throughput adequacy to
support the military realignment. To achieve the throughput, the following
improvements were found to be required:

1. Automated Gate System. The gate system will be automated, access roads will be
   relocated, and truck routes will be redesigned to speed up the process. During the
   peak year container throughput, it is estimated that the gate complex will experience a
   peak volume of 150 trucks per hour two times per a peak day. The automated gate
   system is designed to be able to handle over 180 trucks per hour. Additionally, a
   truck appointment system will be put in place to spread out peak times for the gate
   throughput during the day. The port will also be extending the hours of gate
   operations from 8 hours per day to 11 hours per day.

                                              7
2. Break-bulk Area Expansion. The port ran scenarios at three different time periods
   to determine how much acreage will be needed to handle the increased break-bulk
   (see Figure 3). Based on the analysis of these scenarios, the Port Authority of Guam
   determined that the break-bulk area will expand to 10 acres from the current area of
   about five acres. However, in scenario 1 and 2, additional expansion into the
   container staging area will be used to give enough room to temporarily store
   excessive break-bulk material.

           Figure 3. Break-bulk Cargo Throughput Forecast vs. Container
                               Throughput Forecast




                                                                                      
        Source: “Final Terminal Development & Operations Plan,” April 2010


3. Container Staging Area Expansion. The container staging area will be increased
   and stacking heights will be determined to ensure that there is enough room for all
   containers predicted at the peak of the throughput.

Based on improvements from the port’s Final Terminal Development & Operations Plan
of April 2010, Phase IA should enable the Port of Guam to achieve the required
throughput in support of the military realignment. However, not included in Phase IA are
the repairs to the bulkhead which have a high risk of failure. Bulkhead failure would
have a severe impact on the throughput, affecting the realignment progress. This issue is
presented in ‘Finding: Port Bulkhead’ section on page 12.

Repairs to the bulkhead are included in the port’s Final Terminal Development &
Operations Plan of April 2010, in Phase IB. However, funding and scheduling for the
phase have not been determined. Additionally, having the bulkhead repairs in Phase IB
does not adhere to the priorities of the objectives in the Memorandum of Understanding
between MARAD and the Port Authority of Guam. MARAD and the Port Authority of
Guam are jointly developing a revised implementation plan for the Port Improvement
Program which is projected to be completed in October 2011.


                                                          8
Cost Estimate
The Port Authority of Guam contracted with PBI for a cost estimate for Phase IA. PBI
initially performed a detailed engineering cost estimate for Phase IA in the amount of
$133 million. However, the Port Authority of Guam’s available funding was only
$105.5 million (as show in ‘Budget’ section below). Due to the significant funding
shortfall, PBI completed a value-engineering analysis of the initial estimate aimed at
reducing approximately $27.5 million in program costs to bring it as close as possible to
the $105.5 million. However, MARAD has stated that the cost estimate does not include
any contingency calculations, which imposes a significant risk of cost over-runs.
MARAD and the Port Authority of Guam are jointly planning to include a new cost
estimate in the revised implementation plan for the Port Improvement Program; MARAD
is attempting to determine a timeframe for the final plan.

Budget
On October 14, 2008, Public Law 110-417 established in the Treasury of the United
States, a separate account known as the ‘‘Port of Guam Improvement Enterprise Fund.”
The fund was created on October 1, 2009. The amounts deposited in the fund were set up
to be available to the MARAD Administrator to carry out the program. The H.R. 4899-5:
Supplemental Appropriations Act of 2010 Public Law 111-212, included a provision
authorizing DOD to transfer up to $50 million to the fund. MARAD received the
$50 million from DOD on September 22, 2010. The funds are to remain available until
expended. The program is intended to provide for the planning, design, and construction
of projects to improve facilities, relieve port congestion, and give greater access to port
facilities at the Port of Guam.

On October 22, 2010, a $54.5 million appropriation was obligated to the U.S. Department
of Agriculture (USDA) for loans to the Port Authority of Guam to complete the funding
for Phase IA. However, the financial negotiations and conditions for the funding
between the Port Authority of Guam and USDA have not been finalized. Additionally,
$1 million in Department of Interior Office of Insular Affairs grant funding was
reprogrammed from the Port Authority of Guam to MARAD for startup activities.
Table 1 shows the summation of the funding available for Phase IA.




                                            9
                  Table 1. Commercial Port of Guam Phase 1A Funding
                      Source of Capital                   Amount in million ($M)

Federal Funding
Department of Interior Office of Insular Affairs grant funding             $1.0
transferred by Port Authority of Guam to Enterprise Fund
DOD funding transferred to Enterprise Fund                                 $50.0

Port Authority of Guam Loan Financing
U.S. Department of Agriculture Direct Loan                                 $25.0

U.S. Department of Agriculture Guaranteed Loan                             $25.0

U.S. Department of Agriculture Equipment Loan                              $4.5

           Total Funding Available for Phase IA                           $105.5


Contract
Prior to the establishment of the Enterprise Fund, the Port Authority of Guam and
MARAD executed a Memorandum of Understanding in November 2008. The
Memorandum of Understanding outlined the cooperative arrangement whereby MARAD
will provide technical support consistent with the Port Modernization Program
objectives.

In April 2010, MARAD awarded a contract to EA Engineering, Science, and
Technology, Inc. as the Program Management Team to help accomplish its Memorandum
of Understanding, and legislative and agency responsibilities. The Program Management
Team will be involved in the oversight of design, engineering, and environmental
services; contracting (for purchases, professional services, and construction); construction
permitting; and overall program management. MARAD can issue task orders and order
design management services for port modernization activities to the contractor Program
Management Team. All invoices from the Program Management Team will be submitted
to MARAD and only MARAD can authorize the Program Management Team’s
contractor to purchase supplies and services.

Additionally, the Memorandum of Understanding states that the Port Authority of Guam
will prescribe the functional, operational, quality, performance and engineering standards
for improvements to be executed through MARAD to the Program Management Team.

Schedule
MARAD and the Port Authority of Guam originally planned to start Phase IA capital
improvement projects in July 2011 and the scheduled construction was to be completed
in 2013. Because the pace and sequencing of the construction projects are now being
reevaluated as part of the adaptive program management, the original cargo projections
are no longer valid.

                                                    10
Sustainment
The Port Authority of Guam is responsible for the port’s sustainment. The sustainment
required for the Port of Guam continues to be demanding because of increased wear and
tear to the wharf structures and equipment that operate on these structures as cargo
volumes increase. It is anticipated that port’s sustainment funding for continuous
operations and maintenance will be derived from revenues. If maintenance is not done
properly, it would directly affect the throughput needed for a successful realignment.

Additionally, as previously stated, the bulkhead is at serious risk for failure. See
‘Finding: Port Bulkhead’ on page 12, for more information.




                                             11
Finding: Port Bulkhead
        The structural integrity of the commercial port bulkhead is seriously
        damaged and at a high risk for significant failure. The current state of the
        bulkhead was caused by a lack of adequate repairs to damages from
        earthquakes, corrosion, and stresses from ships and cargo-handling
        equipment. Because of the lack of adequate repairs, there is significant
        risk in achieving the projected throughput needed for the scheduled
        realignment.

Discussion
The Guam commercial port was originally constructed in 1969. The bulkhead, a concrete
wall that serves as a protective barrier between the docking ships and the land, has six
berths - F-1 through F-6 (see Figure 4). Berth F-1 is managed by the private sector and
operated by Shell Oil. It also                  Figure 4. Port of Guam, Berths F-1 to F-6
accommodates liquid tankers and the
Hotel Wharf. Berth F-2 is for fishing
fleet repairs and is leased to a private
company. Berths F-3, F-4, F-5, and F-6
accommodate containerships, general
cargo vessels, passenger vessels, and
fishing vessels. Each berth is 660-feet
long and 34-feet deep, with a maximum
beam of 107-feet. The damage and
deterioration findings noted in this report
focus mainly on berths F-4, F-5, and F-6
which are located along the straight part
                                             Source: Modified by DOD IG from “Port Authority of Guam
of the bulkhead.                             Implementation Plan," September 2010

Earthquake Damage
Seismic design for a port facility is a critical factor. The 2009 International Building
Code recognizes Guam’s high earthquake risk, and categorizes the Port of Guam in the
same ‘Seismic Design Level’ as Japan, Taiwan, and Seattle. A majority of the
earthquakes that have occurred in this region have been some of the most damaging
earthquakes in the world.

There have been multiple earthquakes in Guam in recent years, with the most devastating
taking place on August 08, 1993. This earthquake lasted 60 seconds and caused
extensive damage to the port’s bulkhead. The earthquake struck with a magnitude of 8.3
and its epicenter was located approximately 50 km south of Guam in the Marianas
Trench. The island sustained massive devastation with significant damage to the port’s
berth F-5, which required major reconstruction. Although other port berths were also
damaged, they were not reconstructed. It took 3 years to repair the destruction to berth
F-5 and those repairs were not completed until 1998.




                                               12
Bulkhead Condition
There are multiple continuous failing defects that have been documented in various
reports and surveys performed on the structural integrity of the Port of Guam bulkhead.
The report and surveys indicate that the bulkhead was damaged both above and below the
water. On the facade, the sides and the surface show cracks, fissures, separation,
spalling, delamination, exposed rebar, rusting rebar and severe under deck slab
deterioration damage. Underwater, there is extensive damage to the concrete bulkhead,
the sheet pile which revealed no cathodic protection, and the tie-rods, as documented in
the surveys performed in 1998, 2002, 2004, 2007, 2008, and most recently in 2010
(which was reported in March 2011) by various consulting and engineering firms to
include: Harza Engineering Company; Lifttech Consultants, Inc.; ProMarine Technology;
Duenas Bordallo Camacho & Associates, Inc.; Parsons Brinkerhoff International; Sea
Engineering Inc.; and Kleinefielder.

Bulkhead Movement
Earth Movement. Post-earthquake damage surveys conducted on the Port of Guam’s
bulkhead have found liquefaction and lateral spreading as the main causes of the damage.
A majority of the bulkhead’s structural and pavement damage is due to liquefaction
(induced lateral spreading of the loose, coral fill underlying estuarine sediment behind the
anchored sheet pile of the bulkhead). Liquefaction of the soil on the waterside of the
sheet pile has resulted in a shift of the tie-rods, which being in this condition, continue to
move. The 2002 survey noted that the boulders that formerly supported the sheet piling
at berth F-6, shifted up to 8-feet away from the piling.  The shift and movement has
created an increased risk to each berth along the “crane runway section” (berth F-4
through berth F-6) of the bulkhead wall, both laterally and vertically. On the landside of
the bulkhead, a 2008 survey measured significant lateral displacement along the “crane
runway” by as much as 18-inches toward the water due to the shifted tie-rods.

A survey completed by Harza in 1994, noted:

               Sandy materials behind the bulkhead wall liquefied causing increased
               lateral forces on the bulkhead wall. As a result of the increased lateral
               forces and the liquefaction of the sandy soils in front of the sheet pile
               wall, the bulkhead wall moved toward the waterside. In addition, the
               liquefaction of the underlying sandy soils caused the upper gravel fill
               layer and asphaltic concrete pavement to crack and settle.

Harza consultants also noted the shifting of the tie-rods and recommended inspection and
replacement; the survey stated “…a total of four excavations be performed so that the tie-
rods can be visually inspected for their entire length.” Additionally, Harza went on to
recommend, “a new concrete pile supported wharf structure.”

Fourteen years later, Duenas Bordallo Camacho & Associates, Inc. in their 2008 survey
indicated that all recommendations had not been addressed. Only spot welds to the steel
plates on the sheet pile and the bulkhead wall, as well as filled-in surface cracks to the
bulkhead had been completed. The 2011 report by PBI noted that, “Tie-rods and steel
sheetpile deadman were not inspected because open excavations to reveal these

                                                 13
components for an inspection could not be performed due to the potential impact on
terminal operations.”

Structural Movement. The lack of maintenance from additional bulkhead stress caused
by the movement of the cranes is another significant cause of deterioration to the
bulkhead. The 2008 survey conducted by Duenas Bordallo Camacho & Associates, Inc.
confirmed the condition of the bulkhead as explained in the 1994 report by Liftech. Due
to the liquefaction of the soil behind the bulkhead, the tie-rods are no longer held firmly
in place to the soil behind the wall. As a result, the bulkhead together with the crane rail
support rotates clockwise toward the water when a crane operates. This crane rail
rotation translates to as much as 24-inches in the direction of the water. As a result of
excessive movement of the bulkhead and tie-rods, the soil behind the bulkhead has
settled, causing fissures in the asphalt pavement along the crane runway. The 2008
Duenas Bordallo Camacho & Associates, Inc. survey resulted in a recommendation to
replace the crane rail system. In November 2009, the replacement of the crane rail
system was completed. Additionally, the 2011 report recommended that the spur rail
(which acts as a passing track) be removed:
               “At this time, PB (Parsons Brinkerhoff) has determined that the
               majority of damage observed is related to structural elements that
               support the spur rail. In its current condition, the structure beneath F-5
               can not support anticipated loads for crane activity on these spur
               rails…It is therefore our recommendation that this spur rail be removed
               to eliminate any possibility of use in the future.”

Furthermore, in January 2011, the port failed an insurance inspection which resulted in
the temporary closure of F-5 and an investigation. The berth at F-5 was re-opened for
normal operations on April 18, 2011. See ‘Recent Inspection’ section on page 16 for
further details.

Stresses and Corrosion
Underwater Stresses. After the 3-year repair effort following the earthquake of 1993,
the first underwater survey was performed on berths F-3, F-4, F-5, and F-6. The survey
was conducted by ProMarine Technology on January 13, 1998. The ProMarine survey
noted a gouge 3-feet long and 12-inches into the berth F-3 bulkhead wall. ProMarine
stated that the damage was caused from a ship, which left the rebar exposed and rusted.
This triangle void was also noted in later surveys. As for berth F-4, it had a cover plate
welded to a sheet pile covering a 19-feet long crack that was injected with grout. The
cover plate began at 22-feet below the surface and continued down to 41-feet. The
ProMarine survey showed the earthquake repair construction area to be holding for berths
F-5 and F-6.

Four years later, on May 20, 2002, another survey was conducted by ProMarine
Technology. The survey revealed even more damage to berths F-4, F-5, and F-6. First
noted was the 90 degree intersection joint of berths F-2 and F-3, where the sheet piling
was separated. The separation revealed ground water and fuel oil discharging through the
gap. Also, berth F-4 showed multiple areas of exposed rebar on the bottom of the
concrete cap. Within berth F-4, the May survey revealed that an 18-feet x 3-feet steel

                                                  14
plate was no longer welded to the sheet pile. The ProMarine surveyor noted, “Repair
plate is short, it has no sheet piling behind the repair plate, the erosion is significant and
goes back approx. 3-feet and up 4.5-feet.”

For berth F-5, the 2002 survey noted that the bottom of the concrete cap was fractured,
leaving exposed rebar. The survey gave detailed descriptions of two areas in berth F-6
with two short sheet piles. Erosion was apparent underneath the sheet pile ends as the 4-
feet x 2.5-feet steel repair plates were too short and did not fully cover the area that they
were welded onto. In addition, erosion was apparent behind the repair plates. Years
later, in the 2010 survey, the condition was still observed, “…the original repair plate
did not reach down to the mudline and there was erosion behind the plate as reported by
others. Subsequently, an additional repair plate was welded to the original repair plate
and the space between the repair plate and the sheetpile bulkhead was filled with
concrete to avoid further erosion.”

Long-term Corrosion. Long-term corrosion was found underwater where the rebar has
been exposed for many years. On September 10, 2004, another survey was performed by
ProMarine Tech. The survey reported that the gouge at berth F-3 had grown in size from
the original survey performed in 1998. The triangular void grew to 6-feet wide at the
bottom, 3-feet and 6-inches in height, and 18-inches deep. This void exposed a very
corroded rebar. The 2004 survey also reported that previous conditions from the 2002
survey had worsened. Erosion continued on the bulkhead wall behind the various repair
plates and the metal plates were no longer attached to the sheet pile. The 2004 survey
noted a great amount of corrosion to the rebar and erosion of the concrete wall where
repair plates were once attached to cover the long and deep cracks. The 2010 survey
noted in berth F-4 and F-5 that, “Cathodic potential readings as part of the Level III
inspection revealed that the steel sheetpile bulkhead is currently not protected against
corrosion by the anodes. Visual inspection also revealed that sacrificial anodes have
been completely consumed.” Anodes are typically used to protect other metals from
eroding and corroding at higher rates.

Ship Docking Stresses. Ship docking stresses were noted where holes and chunks of
concrete have been knocked off from the bulkhead surface of the concrete cap, and in
some cases exposing the rebar. In 2008, a structural and civil assessment, as well as a
topographic and hydrostatic survey of the bulkhead was performed by Duenas Bordallo
Camacho & Associates, Inc. The assessment and survey were commissioned by the Port
Authority of Guam to address the bulkhead docking facilities from berths F-3 through F-
6, above and below the water. The assessment and evaluation is the most current
documentation depicting the dilapidated condition of the bulkhead berths. Based on field
observations, the assessment and evaluation noted:
               There are several areas along the docking facility bulkhead that are
               severely deteriorated, cracked, spalled, and have exposed
               reinforcement. The entire length of concrete bulkhead will need to be
               repaired, rehabilitated and partially replaced.




                                                15
The assessment and evaluation confirm the 2008 survey recommendation that, “…the
entire length of concrete bulkhead will need to be repaired, rehabilitated and partially
replaced…” establishing that the structural integrity of the bulkhead is in significant
danger of failure.

In order to determine the severe spalling and delamination noted in the previous report,
the Port Authority of Guam authorized PBI to have concrete chemical testing performed
on the beams, piles, and under deck structure. The 2011 report included the results of the
material testing which stated:

               The chloride content of the concrete was twice the acceptable levels by
               normal industry standards. Additionally, the permeability of chlorides
               through the concrete was high.… chlorides increase the potential for
               corrosion of the reinforcement… higher levels of electrical activity are
               an indicator of the presence of active corrosion of the reinforcement.
               Test indicated that there is active corrosion occurring.

Recent Inspection
On January 31, 2011, it was reported in a press release that the Port Authority of Guam
will stop using berth F-5 for a few weeks because of “unidentified damage” to the
underwater support structure as found in a recently scheduled underwater inspection.
The port’s general manager stated, “Representatives of the Port’s insurance company
have instructed the Port that, per the requirements of the Port’s insurance, operation
changes are required as a preventative measure to reduce the risk of further damage…
Once a completed investigation is complete, a re-evaluation of the operations will be
made.”

Further preliminary inspection revealed that the situation with the insurance company’s
temporary closure of berth F-5, “is related to unanticipated damage to the concrete
structures (beams, piles) involving concrete spalling, delamination of concrete, cracks in
concrete, and exposed structural rebar in a few locations. The Port is restricting
operations until further assessment can be completed.”

In a timely fashion, the 2011 PBI report with the December 2010 survey was submitted
for review. Shortly after, the Port Authority of Guam reported that, “…analysis revealed
that the beams supporting wharf F-5 are structurally intact and that the Port Authority
resumed normal operations at the dock on April 18, (2011).”

Finding Recap
Because of the significant structural damage sustained from the 1993 earthquake and the
continuing deterioration of the bulkhead (in spite of the marginal 3-year repairs
completed in 1998), there is a significant risk for a major structural failure in the Port of
Guam’s bulkhead which has a dilapidating under deck structure, beams with cracks that
run the entire length, numerous areas of exposed-corroding rebar, and chloride permeable
concrete that is self-destructing with high levels of electrical activity. The structural
failure would directly impact the throughput of military shipments during the critical
phase of the military realignment. These findings were reported in numerous surveys

                                                 16
(dating from 1998 to present). The current bulkhead condition poses an increased risk of
failure that could shut down or significantly reduce the throughput while unscheduled and
unfunded repairs are completed on an emergency basis. The risk would be significantly
reduced if the bulkhead issues are addressed by a revised implementation plan for Port
Improvement Program utilizing the priorities outlined in the Memorandum of
Understanding.

Coordination of Finding
Given the fact that the Guam commercial port bulkhead is at significant risk of major
structural failure, the DOD IG issued a memorandum of condition to USDOT, MARAD
addressing the serious condition of the bulkhead (see Appendix B on page 73). The
memorandum advocated that MARAD work with the Port Authority of Guam to
implement the first priority of the Memorandum of Understanding between MARAD and
the Port Authority of Guam, signed November 2008, that stated, “Correct the
deteriorated structural, utility and infrastructural facility deficiencies and upgrade said
facilities to modern safe standard.”

Management Comments on the Finding
The USDOT, MARAD agreed with the Port Bulkhead finding. MARAD stated,
“MARAD recognizes that structural deterioration to the bulkhead threatens the Port’s
capability to provide safe and sufficient capacity. MARAD will use every opportunity to
emphasize that the bulkhead integrity should be the Port Authority’s top priority.”

MARAD has initiated actions to ensure that the structural deterioration to the bulkhead is
identified. In their response to the draft report they stated, “To focus on these actions,
MARAD has initiated an independent engineering review to evaluate the existing defects
in Berths F-4, F-5, and F-6.” MARAD went on to state that they expect to receive the
independent engineering report in October. In addition, MARAD stated, “MARAD will
ensure that the results of its independent review are appropriately considered in
finalizing the Implementation Plan.”




                                            17
This page intentionally left blank




                 18
II. ROADS
                 Figure 5. Points of Interest and Initial Construction




       Source: Assessment of FHWA Organizational Involvement and Preparedness for DOD Military Build‐up in Guam


Background
Requirements
The Federal Highway Administration (FHWA) report, Assessment of FHWA
Organizational Involvement and Preparedness for DOD Military Build-up in Guam dated
September 2009, stated that construction activities caused by the military realignment in
Guam will increase traffic volumes and vehicular cargo weights beyond current levels.
This increase will stress portions of the existing road system to a point of failure.

Initially, by identifying points of interest, necessary routes that form a network of roads
to support the realignment construction were chosen (see Figure 5). Points of interest on
the island include the military bases and their airfields, the main island airport, the Port of
Guam, the center of the city (downtown), and solid waste landfill.

                                                        19
The FHWA report and Final EIS identified the following types of Guam Road Network
(GRN) projects to meet the demand of the military realignment: intersection
improvement projects (including intersections at military access points), bridge
repair/replacement, pavement strengthening, road widening and realignment, and new
road construction projects.

The purpose of the proposed GRN is to improve the existing Guam roadway through the
Defense Access Road (DAR) program or other funds and to provide transportation
infrastructure improvements necessary for the military realignment. Proposed
improvements for the GRN will result in strengthened roadways, bridge replacements,
increased roadway capacity, new access, and enhanced roadway safety on Guam to
accommodate the increased construction traffic caused by the military realignment and
subsequent induced growth.

The Joint Guam Program Office, Naval Facilities Engineering Command Pacific
(NAVFAC PAC), and government of Guam worked together to determine infrastructure
needs and impacts. As a result, roadways were identified and prioritized. Guam route
numbers 1, 3, 8, 9, 11, 16 and 27 were listed as the preferred truck routes for cargo
hauled from the port to the northern part of Guam. FHWA also included route 15 and
Chalan Lajuna as preferred truck routes leading to the quarry. Altogether, these
roadways are essential for transporting construction materials from the commercial port
to military construction locations.

The Final EIS identified various road and bridge construction projects to support the
increased traffic caused by the military realignment. The report identified projects along
the preferred truck routes of 1, 3, 8, 9, 11, 16 and 27, and Chalan Lajuna. The projects
can be broken down into ‘off-base’ projects (intersection improvement, replacement or
repair of bridges, pavement strengthening, roadway realignment, roadway widening, and
new road construction) and intersection improvement projects at Military Access Points.
The projects cover four geographic regions in Guam: Apra Harbor, north, central, and
south. The U.S. Navy evaluated and identified appropriate sites for consideration of
primary facility components. The process resulted in the selection of 49 GRN projects.

Statutory and Regulatory Responsibilities
Responsibility for the roads in Guam belongs to both, the Guam Department of Public
Works and the FHWA. On May 24, 2007, the two agencies signed an agreement, the
“Stewardship Agreement,” defining the responsibilities of each agency.

The purpose of the DAR program is to establish the means by which the DOD helps to
fund public highway improvements. The DAR program is authorized by Title 23, United
States Code, “Highways,” Section 210.

               23 USC 210(a). The Secretary [of Transportation] is authorized, out of
               the funds appropriated for defense access roads, to provide for the
               construction and maintenance of defense access roads (including
               bridges, tubes, and tunnels thereon) to military reservations, to defense

                                                 20
              industries and defense industry sites, and to the sources of raw
              materials when such roads are certified to the Secretary as important to
              the national defense by the Secretary of Defense or such other official
              as the President may designate, and for replacing existing highways and
              highway connections that are shut off from the general public use by
              necessary closures or restrictions at military reservations and defense
              industry sites.

The DAR program is jointly administered by the Surface Deployment and Distribution
Command for DOD and FHWA for USDOT. Once the DAR projects are completed, the
roads are turned over to Guam highway authorities for operation and maintenance.

Inclusion in Composite Program
Forty-nine approved individual roadway and bridge projects were identified and proposed
as the “Guam Road Network” project. Five projects are expected to occur in FY 2010
(see Figure 6) and three are planned for FY 2011 (see Figure 7). Requests for Proposals
have been advertised for both FY 2010 and FY 2011. Additionally, eight projects in the
GRN have been determined DAR-eligible. Of the eight projects, there are seven bridges
combined together as GRN project #35. Those bridges have ratings below the
appropriate load‐bearing capacity for many military vehicles. Before any large axle
military vehicle with higher cargo gross weight can traverse the routes, the eight
DAR-eligible projects must be constructed (see Table 2).  




                                                21
                           Table 2. Guam Road Network Project Status
            Guam
            Road
Fiscal                        Description of the
           Network                                                RFP           Budget           Funding Status
Year                               Project
           Projects
           Number
                1          Rt.1 & Rt. 8 Intersection           GU-DAR-
                3          Agana Bridge                        0001(014)                         EIS (July 2010)
                           Rt.1 & Rt.3 Intersection            GU-DAR-                        stated that these five
  FY            2                                              0001(125)                      high priority projects
 2010                      Rt. 11 Paving – Port to                               $50 M
                4                                                                                has been DAR-
                           Rt.1                                GU-DAR-                        certified, authorized
                           Rt. 11 & Rt. 1                      0011(008)                        and appropriated
                5
                           Intersection
                           Rt. 3 Paving – NCTS                                                    EIS (July 2010)
                9
                           Finegayan to Rt. 28
                                                                                                  stated that these
  FY                       Rt. 3 Paving – NCTS
                                                               GU-DAR-           $66.73         three projects have
 2011          38          Finegayan to Commercial             0003(105)
                           Gate
                                                                                   M           been DAR-certified,
                           Rt. 3 Paving – NCTS                                                     authorized and
               39                                                                                   appropriated
                           Finegayan to Main Gate
               10          Widening
               11          Strengthening                          TBD                            EIS (July 2010)
               22          Widening                                                             stated that these 8
 FY            35          7 Bridges                                                            projects have been
                                                                  TBD             TBD
TBD            36          Road Relocation                                                       determined to be
               44          Intersection                                                            DAR-eligible
               46          Intersection                           TBD
               52          Intersection
*Remaining 33 GRN projects are in the evaluation process for DAR eligibility or identifying another funding source.
 Source: FEIS July 2010 & FHWA report & DAR updated schedule




                                                         22
        Figure 6. Location of FY 2010 DAR Projects




                                               FY 2010 DAR Projects

                                          1.   Agana Bridge #1 Replacement
                                          2.   Route 1/8 Intersection
                                          3.   Route 1/3 Intersection
                                          4.   Route 1/11 Intersection
                                          5.   Route 11 Pavement Strengthening




   Source: Guam and CNMI Military Relocation EIS Off-Base Roads Planning Effort

        Figure 7. Location of FY 2011 DAR Projects




                                           FY 2011 DAR Projects

                                    1.     Route 3: NCTS Finegayan to Route 28
                                    2.     Route 3: NCTS Finegayan to Route 9
                                    3.     Route 9: Route 3 to AAFB 3rd Gate


Source: Guam and CNMI Military Relocation EIS Off-Base Roads Planning Effort


                                         23
Cost Estimate
The methodology used to develop the cost estimate for Guam roads entailed an
evaluation of the type and amount of materials required, analysis of the cost of those
materials, and assessment of the construction/labor cost to build the civil infrastructure.
In order to establish the amount of construction materials necessary for improvements,
the Remaining Service Life was determined on portions of road where an evaluation of
the pavement condition and performance was needed in the GRN. The Remaining
Service Life was calculated in terms of Equivalent Single Axle Load which provided
maintenance, rehabilitation and reconstruction recommendations. By determining the
existing pavement condition and Equivalent Single Axle Load (design thickness of
asphalt pavement by an evaluation of the cargo’s gross weight distributed among trucks,
the number of trips, and class of truck that transports material), the actual quantity of
construction materials were calculated.

The cost estimate for individual costs of materials followed the requirements of FHWA
Code of Federal Regulations for DOT (23 CFR). Engineering cost estimates for each
Request for Proposal road project was calculated and then re-calculated five times. The
calculations were made once before the submittal of the DD1391; then again upon
completion of each - 30%, 60%, and 90% - design phase of the road plans; and once for a
final updated cost estimate recalculated prior to the Request for Proposal publication.
The Request for Proposal was produced by FHWA and publicized by the Guam
Department of Public Works. Accuracy in determining the costs of each item was
contingent upon the final amounts of construction materials needed and upon
local/imported materials.

The final Guam road                             Figure 8. Cost per lane mile
construction cost was       $1,200,000.00
estimated to be
approximately               $1,000,000.00
$1.03 million per lane        $800,000.00
mile. In comparison,
                              $600,000.00
construction costs per
lane mile are $1.0            $400,000.00
million in Hawaii,
                              $200,000.00
$0.41 million in
Maryland, and $0.33                     $‐
million in California                          Maryland     California Washington      Hawaii       Guam
(see Figure 8).           Source: Guam and CNMI Military Relocation EIS Off-Base Roads Planning Effort


The higher cost of road construction in Guam is caused by the necessity to import
materials. Imported aggregate comes from Taiwan, and asphalt and basalt come from
Japan. In addition to transportation costs, the Port Authority of Guam assesses container
charges and terminal handling charges based on origin of the ship, Guam
wharfage/terminal charges, facility maintenance fees, crane surcharges and ocean freight
charges either per container or per weight/measurement (the greater of the two), and a 28
percent fuel surcharge.

                                                  24
To keep down costs, locally mined coral is used in the concrete mix for the roads.
However, the coral polishes over time and becomes very slippery when wet. Therefore, a
1-inch anti‐skid layer comprised of imported basalt and aggregate rock is applied as the
top layer.

Although the cost of labor is significantly lower in Guam than the U.S. mainland, labor
salaries are in agreement with the salaries set by Davis Bacon wage rates. Davis Bacon
wage rates are overseen by Department of Labor, Employment Standards Administration
and Wage Hour Division per the Davis–Bacon Act of 1931. A peak demand in year
2013, based on the realignment roadmap schedule, will require 15,913 construction
workers to construct the GRN. However, as a result of the adaptive program
management, the pace and sequencing of the projects may change. The National Defense
Authorization Act for FY 2010 addresses wage control and the lack of workforce and
employment of visa workers. The labor issue of attracting construction workers and
related information for the entire realignment program are discussed in detail in ‘Other
Areas of Concern’ section found in Chapter VIII on page 67.

Budget
The Record of Decision of the Final EIS was the major factor in initializing the FY 2010
DAR projects. The Record of Decision includes descriptions and discussions of the
proposed actions, and related actions and their impacts associated with all actions
addressed in the Final EIS. The Record of Decision was signed in September 2010 and
DAR projects have officially begun (see Table 3 for details). DAR eligibility was
certified prior to the authorization and appropriation of the FY 2010 budget of $50
million and the FY 2011 budget of $66.73 million.

Contract
The Request for Proposals for FY 2010 and FY 2011 projects have been advertised on
the Guam Transportation Program Contractor Opportunities Web site.

The two Design Build RFPs for FY 2010 are:
GU-DAR-0011(008) (GRN #4/#5) advertised on Sept. 2010; and
GU-DAR-0001(014) (GRN #1/#3) advertised on Sept. 2010.

The two Design Bid Builds are:
FY 2010 - GU-DAR-0001(125) (GRN #2), advertised on Oct. 2009; and
FY 2011 - GU-DAR-0003(105) (GRN #9, #38, #39), advertised on March 2010.

The Guam Department of Public Works will execute the contract. The FHWA obligated
the funds for the FY 2011 project during the third week of January 2011.




                                           25
Schedule
The schedule provided by FHWA for FY 2010 and FY 2011 are listed in Table 3.

      Table 3. Guam Road Network Project Schedule for FY 2010 and FY 2011
    FY             Contract #                 GRN#          Construction Begin           Construction End 
              GU‐DAR‐0001(014)                 1 & 3       October 2011                 November 2013 
 FY 2010      GU‐DAR‐0011(008)                 4 & 5       September 2011               September 2012 
              GU‐DAR‐0001(125)                   2         September 2012               September 2013 
 FY 2011      GU‐DAR‐0003(105)               9, 38, 39     September 2012               September 2013 
Source: DAR Projects Schedule (DAR FY2010/2011 GPA/GWA CIP Projects) Provided by FHWA-USDOT


Sustainment
The FHWA and the government of Guam signed a “Stewardship Agreement” in May
2007 establishing their roles and responsibilities regarding the GRN. In the agreement,
the government of Guam committed to provide routine maintenance to the facilities
constructed or operated, and to adequately serve the needs of present and future traffic.

The FHWA is committed to routinely assessing the facilities during their visits to Guam.
The Stewardship Agreement describes the role of the FHWA:

                  If at any time the FHWA finds that any project constructed with
                  Federal-aid highway funds are not properly maintained, the FHWA
                  shall call such fact to the Government of Guam. If, within 90 days after
                  receipt of such notice, such project has not been put in proper condition
                  of maintenance, the FHWA shall withhold approval of further projects
                  of all types in an area for which the FHWA deems most appropriate,
                  until such projects shall have been put in proper condition of
                  maintenance.

Conclusion
The Joint Guam Program Office, NAVFAC PAC, and government of Guam worked
together to determine infrastructure needs and impacts. As a result, roadways were
identified and prioritized for transporting construction materials from the commercial
port to military construction locations. The Final EIS identified the road and bridge
construction projects to support the increased traffic caused by the military realignment.
Forty-nine approved individual roadway and bridge projects were identified and proposed
as the “Guam Road Network” project. Five projects are expected to occur in FY 2010
and three are planned for FY 2011. Requests for Proposals have been advertised for both
FY 2010 and FY 2011.




                                                      26
III. Power Generation, Transmission &
Distribution
                              Figure 9. Harmon Annex Power Station




Source: Photo courtesy of DOD IG


Background
Requirements
As part of the military realignment to Guam, NAVFAC PAC worked with NAVFAC
Marianas and the Guam Power Authority to establish projected impacts. NAVFAC
calculated that the current existing generation systems consisting of backup units, base
load units (steam turbine and slow speed to slow medium speed diesel), and
peaking/reserve units (combustion turbine and medium speed diesel) provide a total
installed power capacity of 586.70 megawatts (MW), an actual available capacity of
463.10 MW, and a peak use of 245 MW. The actual capacity is less than the installed
power supply because some combustion turbines are under repair and/or not needed.

DOD Requirements. The NAVFAC calculated the anticipated demand for each
component of the proposed military realignment and provided the calculation to Guam
Power Authority for system analysis. The DOD estimated a future peak demand of
126.29 MW. The estimate includes the current DOD demand of 56 MW at existing DOD
facilities on Guam, 9.11 MW from other planned projects not related to the military
realignment, 21.36 MW from the military realignment, and 39.82 MW of transient
demand. Each demand value was calculated based on the Unified Facilities Criteria
(UFC) planning criteria. The estimated loads are based on planned facilities to meet the
needs of the projected population. Different cantonments would require different

                                              27
transmission and distribution upgrades, but the basic facility demands would remain the
same. Proposed generation facilities are also expected to remain the same in both
capacity and location.

Transient power demand would occur when either the berthing of a Carrier Strike Group
or an Expeditionary Strike Group would be in port. The Carrier Strike Group and the
Expeditionary Strike Group will never be in port at the same time; so, the power demand
requirement will be the greater of the two. The demand from the Carrier Strike Group is
estimated at 39.82 MW and is greater than the estimated at 16.78 MW than the
Expeditionary Strike Group. Therefore, the demand from the Carrier Strike Group was
considered in demand projections and is part of the total estimated total demand of
126.29 MW.

Non DOD Requirements. Other types of demand that would increase power demand on
Guam are induced civilian growth and construction workers. The power demand for
induced civilian growth was estimated at two-thirds of the current per capita demand for
Guam, which is 1.1 kilowatt (kW). The power demand for construction workers was
considered at one-third of current per capita civilian demand. Power demand from
induced civilian population growth caused by the planned military realignment on Guam
would then be estimated at 0.74 kW per person. Power demand for construction workers
would be estimated at 0.36 kW per person.

Power Supply and Demand Projection. Based on the realignment roadmap schedule,
NAVFAC calculated the anticipated total demand and supply requirements up to the year
2019 for DOD, construction workers, general population growth projections, and
population growth induced by the proposed military realignment to Guam.

Electric power would be provided in accordance with customer service agreements
between Guam Power Authority and the U.S. Navy. Any Guam Power Authority
commitments for additional power to support the aircraft carrier and its escort ships will
be determined by future Customer Service Agreement modifications. Any required
changes in the shore side power infrastructure or their operations to meet the
requirements for the aircraft carrier and its escort ships may require additional NEPA
review.

The DOD IG developed the following Power Supply and Demand plot (Figure 11) based
on the NAVFAC’s data. The plot shows the comparison of total demand (red line), total
power supply (green line), and total power supply with considered reliability factor
(purple line). The total power supply with considered reliability factor is the total power
supply dividing to 1.52, and it is the maximum level that the Guam Power Authority can
provide and ensure the system reliability. This level should be higher than the demand.

Figure 11 compares the projected total supply (red line), along with the total supply
incorporating the reliability factor (green line), to the total demand (purple line) from
2010 to 2019. For the years 2010 and 2011, the Guam Power Authority’s current total
install power capacity is 586.70 MW and due to the breakdown of some combustion

                                            28
turbines, its actual available capacity is 463.10 MW. The available capacity with
considered reliability factor is then 385.91 MW (463.10/1.52) and still higher than the
current demands. For the years 2012 and after, to ensure the power supply for increasing
demand due to the realignment of Guam, the Navy proposed to refurbish the breakdown
combustion turbines and its transmission lines to raise the available power capacity. The
plot shows that the Guam Power Authority’s current and future projected power supply
after the refurbishment of electrical systems are adequate to support the island-wide
power demand for now and up to 2019.

                          Figure 10. Power Supply and Demand on Guam
        700

        600                                                             Total Supply MW

        500

 MW 400                                                                 Total 
                                                                        Supply/1.52 
        300
                                                                        Reliability Factor 
                                                                        MW
        200
                                                                        Total Demand 
        100                                                             MW

          0
               2010 2011 2012 2013 2014 2015 2016 2017 2018 2019

                                                   Year
                                                                                               
Source: “Final Guam Power Generation Study Report” April 2010


Proposed Projects. To ensure that anticipated demands and system reliability is met,
NAVFAC proposed the following power generation options for evaluation:

          Option 1: Recapitalize, modernize and modify the Guam Power Authority system
          to support the added base load to the Guam Power Authority grid. The added
          generation will be provided by Guam Power Authority.

          Option 2A: Construct a new private entity owned/operated base load power plant
          on DOD-provided land specifically to meet load requirements for the facilities
          associated with the military realignment. The facility would have the ability to
          provide excess power to the Guam Power Authority grid. Also, the Guam Power
          Authority grid would be used for backup power in the event the private entity
          plant is out of service.

          Option 2B: Construct a new private entity owned/operated base load power plant
          on DOD or other provided land. The normal operation of this base load plant will
          be to provide power to the Guam Power Authority grid at the best available
          location as an Independent Power Producer. The new military realignment loads


                                                            29
       would be connected to the Island-Wide Power System, but not at the point of the
       new private entity facility.

       Option 3: Construct a new private entity owned/operated base load power plant
       for load on North Finegayan with no connection to Guam Power Authority. This
       option would require spare capacity to provide necessary generation with one unit
       out of service and failure of the largest unit (if units are not the same size).

Option 1 was chosen as it best utilizes the existing Guam Power Authority generating
resources, can be implemented in a timely fashion, and provides adequate power for the
proposed realignment and preferred cantonment alternative. This option would upgrade
15 different Guam Power Authority transmission lines and distribution systems. Option
1 also calls for the recondition of up to five existing Guam Power Authority combustion
turbines to restore the island-wide power supply system to its original design capacity
and support the required reserve capacity for reliability.

The work for option 1 would be undertaken by the Guam Power Authority on its existing
permitted facilities. Reconditioning would be made to existing permitted facilities at the
Marbo, Yigo, Dededo (2 units), and Macheche combustion turbines. The four
combustion turbine plants serve as peaking and reserve units that provide necessary
reliability of Guam's Island-Wide Power System. These combustion turbines are
currently not being used to permit limits as they have been under repair and/or not
needed. Transmission and distribution system upgrades would include existing above
ground and underground transmission lines.

The DD Form 1391, the FY 2011 Power Utility Cost Estimate dated June 2010, and the
comparison of each project item in its form to the projects on the wish list of the Guam
Power Generation Study and Combustion Turbine Plant Reliability Assessment revealed
that the U.S. Navy proposes refurbishment of 3 combustion turbines and upgrading 12
Guam Power Authority transmission lines and distribution systems.

Statutory and Regulatory Responsibilities
Electrical service for DOD facilities is currently provided by the Guam Power Authority
and 19 service locations throughout the island. These service locations are governed by a
Customer Service Agreement (CSA) between the U.S. Navy and Guam Power Authority.
This agreement establishes the electrical rates paid to the Guam Power Authority and is
in force until 2012. In addition, the CSA requires the U.S. Navy to notify Guam Power
Authority of any anticipated DOD-Guam load increases. Guam Power Authority needs
to be notified because its service rules and regulations must be considered in the planning
of future DOD-Guam facilities and infrastructure improvements. The Guam Power
Authority will also construct, own, operate and maintain electric lines and equipment
under, along, upon, and over public streets, roads, and highways where it has the legal
right to do so. Guam Power Authority will also construct, own, operate and maintain
electric lines and equipment on public land and private property across in which it has
obtained right-of-way or other necessary rights.


                                            30
The NAVFAC PAC conducted the Guam Joint Military Master Plan, which is the master
plan for the future build-up of Guam detailing plans for the military realignment. The
master plan identifies Naval Computer and Telecommunications Station (NCTS)
Finegayan, South Finegayan Housing area, Andersen Air Force Base (AFB), Andersen
AFB Northwest Field, and Andersen South as the most impacted locations associated
with the military realignment to Guam. The increased population to these locations will
result in an electrical load increase to the island-wide power system.

NAVFAC PAC conducted the Guam Power Generation Study and Combustion Turbine
Plant Reliability Assessment. NAVFAC PAC proposed a wish list of reconditioning up
to 5 existing Guam Power Authority combustion turbines and upgrading 15 Guam Power
Authority transmissions and distribution systems. The work would be undertaken by
Guam Power Authority on its existing permitted facilities with oversight provided by
NAVFAC Mariana.

Inclusion in Composite Program
NAVFAC PAC conducted the Guam Power Generation Study and Combustion Turbine
Plant Reliability Assessment. The study is part of the Final EIS. NAVFAC PAC
proposed reconditioning 5 existing Guam Power Authority combustion turbines and
upgrading 15 Guam Power Authority transmissions and distribution systems. The
recondition would be made to existing permitted facilities at the Marbo, Yigo, Dededo
(two units), and Macheche combustion turbines. Transmission and distribution system
upgrades would occur on existing above ground and underground transmission lines.
The work would be undertaken by Guam Power Authority on its existing permitted
facilities with oversight provided by NAVFAC Mariana.

The NAVFAC Engineering Service Center (ESC) was tasked by the NAVFAC Marianas
to conduct an assessment of Guam Power Authority's Dededo, Macheche, Yigo, and
Marbo combustion turbine plants. The assessment recommended specific work to ensure
reliability to five existing combustion turbines at these plants. This work included a
review of historical records to include operational and maintenance historical data, and
parts inventories. The work also included a survey of the existing condition of the five
combustion turbines, support equipment, and electrical controls and distribution
equipment. This report provides commentary regarding the evaluation of the data
collected, observations made during this assessment, and refurbishment costs. Also
included in this task is an evaluation of the recommended changes and the impact that
these changes would have against existing environmental permits.

Cost Estimate
The DD Form 1391 for the FY 2011 Power Utility Cost Estimate dated June 2010, shows
that the U.S. Navy proposed the refurbishment of 3 combustion turbines and upgrades to
12 Guam Power Authority transmissions and distribution systems. The total cost for
refurbishment and upgrades is $160 million.

Details of the transmission and distribution project’s justification and cost estimate are
listed in the DD Form 1391 and Budget Estimate Summary Sheet dated June 2010. The

                                            31
cost estimate is based on engineering judgment and cost estimating data RS Means cost
books. RS Means cost books is a construction cost estimating tool. NAVFAC PAC
issued a Technical Direction Form, dated May 21, 2010, to independently verify each
transmission and distribution project in the DD Form 1391.

The Combustion Turbine Plant Reliability Assessment showed that the total cost
estimates for refurbishing the power plants and its associated systems are: Dededo –
$6.95 million, Macheche – $3.6 million, Yigo – $10.75 million, and Marbo – $10.71
million. The recommendations and costs are categorized by plant and unit, and
prioritized based on impact to reliability and safety concerns. The estimated costs were
assembled by contacting vendors, using historical models, and estimating labor based on
project management experience of the NAVFAC ESC engineers with a modifier for
Guam. The costs estimates are approximately $30 million for five combustion turbines –
two going to the Dededo site and three going to other sites to include Macheche, Yigo,
and Marbo.

The Combustion Turbine Plant Reliability Assessment, Executive Summary shows that it
costs approximately $80,000 to replace Dededo’s combustion turbine (No. 2) generator.
The cost was not in line with the cost analysis for the Dededo’s combustion turbine
(No. 2) in Appendix A. The cost analysis proposes a repair plan with two options for the
rotor and a plan with three options for the stator. For repairing the rotor, the total cost for
option 1 is $164,000 and the total cost for option 2 is $913,000. For repairing the stator,
the total cost estimates for options A, B, and C are $2,931,000; $1,897,000; and
$1,800,000 respectively. The difference in combustion turbine (No. 2) cost estimates
between executive summary and cost analysis in Appendix A shows that there was an
inconsistency in the cost estimate of the combustion turbine refurbishment and this may
have lead to the over or under cost estimate for combustion turbines refurbishment
projects. The DOD IG raised the cost estimate inconsistency issue to NAVFAC PAC and
they concurred with it. Subsequently, NAVFAC PAC corrected the cost estimate in the
updated Executive Summary to reflect the correction.

Budget
The DOD is seeking Japanese financing for improvements. Funding is anticipated as part
of the Japanese budget package. $160 million is expected for the refurbishment of 3
combustion turbines and upgrades to 12 Guam Power Authority transmission and
distribution systems. Funding for the projects should be available subsequent to Japanese
FY* 2011 budget approval by the government of Japan.

Contract
NAVFAC PAC originally proposed upgrading 15 Guam Power Authority transmission
lines and distribution systems, and reconditioning 5 Guam Power Authority combustion
turbines. This would restore the island-wide power supply system to its original design
capacity and support the required reserve capacity for reliability. However, due to


*
    The Japanese FY runs from April 1st through March 31st of each year.

                                                     32
limited funding, NAVFAC PAC is planning on only upgrading 12 Guam Power
Authority transmission lines and distribution systems, and reconditioning 3 Guam Power
Authority combustion turbines. The work would be undertaken by the Guam Power
Authority on its existing permitted facilities with oversight by NAVFAC Mariana. The
NAVFAC and Guam Power Authority have been working together to finalize projects for
power generation, transmission, and distribution systems. The contract is currently in
negotiation.

Schedule
There is no firm schedule available for the refurbishment of combustion turbines and
upgrades to the transmission and distribution systems. Construction/refurbishment is
expected to begin approximately in June 2012, with completion by December 2014.
However, as a result of the adaptive program management, the pace and sequencing of
the projects may change.

Sustainment
The refurbishment of combustion turbines and upgrades to the transmission and
distribution systems will reinstall the Guam Power Authority’s maximum power capacity
and ensure its reliability. The power generation planning, sizing, performance,
sustainment, and implementation of responsibility will be placed with the Guam Power
Authority. It is anticipated that the Guam Power Authority would be responsible for
sustainment.

Conclusion
The current existing generation systems could provide a potential total installed power
capacity of 586.70 MW; however, due to the malfunction of some combustion turbines,
the actual available capacity is 463.10 MW. This available capacity is still adequate and
higher than the current peak use of 245 MW. To ensure the adequate power supply for
the military realignment to Guam through 2019, NAVFAC PAC proposed upgrading 12
different Guam Power Authority transmission lines and distribution systems, and
reconditioning up to 3 existing Guam Power Authority combustion turbines to raise its
installed power capacity.




                                           33
This page intentionally left blank




                 34
IV. Drinking Water
                           Figure 11. Ugum Water Treatment Plant




       Source: Photo courtesy of DOD IG


Background
Requirements
The Guam Waterworks Authority (GWA) is the provider of water services to the entire
civilian population and most military facilities on the island of Guam. Approximately,
70 percent of the total water supply is obtained from GWA’s system of groundwater
sources comprising of 121 wells and 5 springs that draw fresh water from an aquifer
underlying the island. The remaining 30 percent of the total water supply comes from
surface water sources which include rivers and reservoirs. The U.S. Navy transfers up to
4 million gallons per day (mgd) to GWA. Collectively, the groundwater sources have a
daily water average production rate of approximately 38 mgd. The GWA water system
has no excess water available for transfer to the DOD to support the military realignment
for the new expansion at Finegayan. The Final EIS specified that an additional 11.3 mgd
of potable water supply would be required to meet future on-base DOD demands
projected for the military realignment. The Final EIS further required a minimum storage
capacity of 4.3 million gallons of water for the military realignment.

Currently, potable water for the existing bases is provided by separate U.S. Navy and Air
Force water systems. In addition to supplying current military bases, the U.S. Navy
provides 4 mgd to GWA from its surface water reservoir for a limited number of civilians
located on the southern part of Guam. The U.S. Air Force also leases a well to GWA on

                                            35
the Naval Support Activity at Andersen AFB. The construction of new wells and related
water supply systems on DOD property is needed to support military realignment.

The Department of the Navy considered nine water resource options/alternatives to meet
the military realignment potable water requirements. The selected alternative would
provide the required additional potable water capacity of 11.3 mgd, through the
establishment of up to 22 new DOD water wells at Andersen AFB; rehabilitation of
existing wells; interconnects with the GWA water system; and construction of associated
treatment, storage and distribution systems. Any excess water from the Marine Corps
base at Finegayan would be supplied to Andersen AFB and the NCTS in Barrigada (near
Andersen South base), to meet the projected deficits at those bases due to the military
realignment.

Statutory and Regulatory Responsibilities
The USEPA ensures that Federal laws protecting human health and the environment are
enforced fairly and effectively. USEPA Region 9 has a direct role in environmental
protection for the U.S. territories of Guam. The Department of the Navy prepared an EIS
to evaluate environmental consequences of the proposed military realignment to Guam.
The EIS addressed surface water, ground water, near shore water, and wetlands. The
statement also concluded that there would be significant indirect impacts on the existing
GWA drinking water system.

Currently, GWA potable water system is in non-compliance for the Safe Drinking Water
Act – 42 U.S.C. §300f et seq. – and the Clean Water Act – 33 U.S.C. §1251 et seq. The
unreliable drinking water distribution system has historically resulted in frequent
bacterial contamination from sewage spills, causing “boil water” notices to be sent to
residents. In December 2002, the United States Department of Justice filed a civil suit
against GWA (Civil No. 02-00035) and the government of Guam for failure to comply
with the Safe Drinking Water Act and the Clean Water Act. The U.S. District Court for
the territory of Guam directed GWA to comply with the Safe Drinking Water Act and the
Clean Water Act. In keeping with its responsibility, the court issued two stipulated
orders. The first stipulated order for preliminary relief was entered in June 2003.
Subsequently, the parties agreed to two modifications of the stipulated order. The second
amended stipulated order was entered by the court in October 2006. The parties viewed
the stipulated order as the most appropriate way to require GWA to immediately
implement short-term projects to address GWA’s compliance with the Safe Drinking
Water Act and the Clean Water Act. Over the last several years, USEPA has demanded
stipulated penalties for violations of the court order. The stipulated order addressed
potential threats to public health and safety, and set intermediate, achievable goals to
bring Guam drinking water into compliance with relevant health, safety and
environmental regulations.

Inclusion in Composite Program
NAVFAC PAC has included the drinking water projects in their Japanese Fiscal Year
(JFY) 2011, 2012, and 2013 Military Construction Programs. The JFY 2011 projects
include well facilities, water treatment, and water transmission. The U.S. Navy will

                                           36
select 14 wells yielding 450 gallons per minute or higher, from an estimated 28 test wells.
The JFY 2012 projects include water storage and transmission work, raw well facilities,
and transmission mains for new wells. The JFY 2013 projects include the remaining well
construction and installation, and water transmission projects.

Cost Estimate
NAVFAC PAC issued a contract to TEC, Inc. Joint Venture that included preparing the
preliminary cost estimates for a water utility study. NAVFAC PAC used these cost
estimates in preparing the Military Construction Program documents (DD Forms 1391)
for all drinking water projects. However, NAVFAC PAC is not procuring the capital
improvements for the drinking water projects. The cost estimates were prepared as
programming documents in order for the Japanese Ministry of Defense to prepare budget
requests. The DOD procurement will be for water service only, not capital
improvements.

Budget
The DD Forms 1391 for JFY 2011, 2012, and 2013, dated September 2010, provide
estimated costs for the drinking water projects (see Table 4 below).

              Table 4. JFY 2011 - 2013 Drinking Water Cost Estimates
                         Fiscal Year        Total Requested
                                              (in $ millions)
                          JFY 2011                   $77.1
                          JFY 2012                   $67.3
                          JFY 2013                   $15.2
                            Total                   $159.6

The DOD is seeking Japanese financing for improvements. Funding is anticipated as part
of the Japanese budget package, of which $159.6 million is expected for the drinking
water projects. Funding for the projects should be available subsequent to JFY 2011
budget approval by the government of Japan.

Contract
No contract for the water projects has been awarded yet due to nonavailability of funds.

Schedule
The schedule for the Guam drinking water projects is contingent upon the availability of
funds. Programmatic plans based on the realignment roadmap schedule call for a 2014
completion date. However, as a result of the adaptive program management, the pace
and sequencing of the projects may change.




                                            37
Sustainment
Discussions between GWA and the DOD continue on the best business approach to
facilitate the required drinking water system upgrades. The Final EIS stated that the
approach could involve a special purpose entity that would finance, develop, upgrade,
operate and manage the drinking water infrastructure associated with the military
realignment.

Conclusion
GWA is the provider of water services to the entire civilian population and most military
facilities on the island of Guam. However, in order to meet the on-base DOD demands
projected for the military realignment, the Final EIS specified that an additional 11.3 mgd
of potable water supply and a minimum storage capacity of 4.3 million gallons of water
would be required. To meet these requirements NAVFAC PAC has developed a three
stage program over JFY 2011 – JFY 2013. The JFY 2011 projects include well facilities,
water treatment, and water transmission. The U.S. Navy will select 14 wells yielding 450
gallons per minute or higher, from an estimated 28 test wells. The JFY 2012 projects
include water storage and transmission work, raw well facilities, and transmission mains
for new wells. The JFY 2013 projects include the remaining well construction and
installation, and water transmission projects.




                                            38
V. Wastewater Treatment
                          Figure 12. Northern District Wastewater Plant




Source: Photo courtesy of DOD IG


Background
Requirements
Overall Requirements. Wastewater treatment for the military is currently provided at
GWA’s two major wastewater treatment plants, the Northern District plant and the
Hagatna plant in the island’s central region. GWA owns both the Northern District
Wastewater Treatment Plant (NDWWTP) and the Hagatna Wastewater Treatment Plant
(WWTP). GWA has contracted the management and operation of the plants since
January 2007. Sewage from several existing DOD bases is currently conveyed to the
NDWWTP for treatment and disposal. The design capacity of NDWWTP is 12.0 mgd
average daily demand and 27.0 mgd peak daily demand. However, the existing National
Pollutant Discharge Elimination System (NPDES) permit to NDWWTP limits the
maximum daily flow to 6 mgd. The current estimated flow is 5.7 mgd and the projected
future flow requirement by 2019 is 10.54 mgd which includes DOD wastewater flow
from the proposed military realignment. Neither flow requirement exceeds the original
design capacity of 12.0 mgd.

The NDWWTP, commissioned in 1979, is the only wastewater treatment facility in
northern Guam and is designated a USEPA Class III wastewater treatment plant. The
NDWWTP is currently operating under a Clean Water Act 301 (h) waiver that allows the

                                               39
discharge of primary treated effluent. The NDWWTP disposes of primary treated
effluent into the Philippine Sea.

Currently, NDWWTP does not meet primary treatment standards and lacks sufficient
capacity as GWA’s wastewater infrastructure (treatment plants, collection piping, and
pump stations). NDWWTP has a legacy of deferred maintenance and minimal capital
improvements that have caused the systems to slowly deteriorate over the years. Due to
poor conditions of the existing assets and limitations of the primary treatment to remove
Biological Oxygen Demand, the plant does not consistently meet the permit requirements
for total suspended solids and Biological Oxygen Demand concentration and loading.
Additionally, the maximum daily flow limit of 6 mgd is occasionally breached.

The NDWWTP NPDES permit expired on June 30, 1991, and was administratively
extended. USEPA denied GWA’s request to renew 301 (h) waivers because GWA did
not comply with Clean Water Act requirements. The USEPA Region 9 issued a final
decision on September 30, 2009, to deny the variance on secondary treatment for
NDWWTP, effectively requiring GWA to install full secondary treatment at both
NDWWTP and Hagatna WWTP.

Interim Requirements. Military realignment projects will require an influx of
temporary construction workers in addition to the military personnel, family members
and civilian support staff. A contractor built the Ukudu workforce village in the
Tanguisson area of Tamuning and Dededo adjacent to the NDWWTP to house up to
14,000 workers.

In order to meet the additional wastewater requirements for the temporary workforce
village, NAVFAC PAC issued a contract to Pacific Program-Design Management
Services JV in December 2010 for a preliminary design study to investigate options to
provide temporary treatment capability at the NDWWTP. The study proposed that
interim upgrades to the plant be commissioned by September 2011 to allow for the
predicted flow requirements of up to 9 mgd. The estimated cost for the temporary
improvement is $8 million. The temporary improvements would be operational until
2014, when permanent treatment upgrades to the plant are completed. USEPA has
agreed, in principle, to the phased approach for the WWTP improvements, but NAVFAC
PAC will have to obtain a formal approval from USEPA upon obligation of the funds. 

Statutory and Regulatory Responsibilities
The following agencies are potential stakeholders and were contacted during the Final
EIS process for the proposed wastewater treatment alternatives.

      U.S. Environmental Protection Agency Region 9
      Guam Environmental Protection Agency
      Guam Water Authority
      Bureau of Statistics and Planning (Coastal Management)
      Guam Department of Aquatic and Wildlife Resources
      Department of Parks and Recreation (Historic Preservation)

                                           40
      Department of Public Works

The Federal Water Pollution Control Act and subsequent amendments, commonly
referred to as the Clean Water Act, authorizes the USEPA, individual states, and local
governments to establish programs to control pollution and restore and maintain the
chemical, physical, and biological integrity of the nation’s water. The goal of the Clean
Water Act is to restore the quality of the nation’s water by regulating the discharge of
point sources. The Clean Water Act considers all discharges to the nation’s water as
unlawful, unless specifically authorized by a permit that requires the discharge to attain
technology-based effluent quality limits. The NPDES permit program was established in
1972 under the Clean Water Act. The USEPA administers the NPDES program and
mandates that dischargers of point source pollutants obtain an NPDES permit.

Guam Environmental Protection Agency, the local regulatory agency, provides input
regarding the receiving water quality standards, pursuant to Section 401 of the Clean
Water Act. Guam Environmental Protection Agency is responsible for implementing
specific local and Federal statutes and regulations on environmental protection. The
agency is responsible for administering a local program that provides sewage treatment
and related facilities for Guam, and controlling pollution from domestic wastewater.

GWA was established by the Guam legislature and is a semi autonomous, self-supporting
agency. GWA administers Guam water utility services to include water treatment and
distribution, sewage conveyance, treatment, and disposal. An elected, non-partisan
Consolidated Commission on Utilities oversees the GWA operations and regulates its
rates.

The United States Department of Justice filed a civil suit against GWA and the
government of Guam in December 2002, for failure to comply with the Safe Drinking
Water Act and the Clean Water Act (U.S. vs. Guam Waterworks Authority, Civil
No. 02-00035 (D. Guam)). A stipulated order for preliminary relief was entered in
June 2003. Subsequently, the parties agreed to two modifications of the stipulated order.
The second amended stipulated order was entered by the court in October 2006. Both
parties viewed the stipulated order as the most appropriate way to address GWA’s
compliance with the Clean Water Act and Safe Drinking Water Act. The stipulated order
contains 56 “deliverable” actions requiring documentation of which eight are delayed but
in progress, as stated in the Quarterly Compliance Progress Report No. 26, prepared by
GWA dated October 27, 2010.

Inclusion in Composite Program
The Department of the Navy evaluated nine options for wastewater treatment and
disposal to meet the military realignment wastewater requirements. The U.S. Navy’s
preferred option was a phased implementation of two options that combine upgrades to
the existing primary treatment facilities and expansion to secondary treatment at the
NDWWTP. The first phase would restore the existing primary treatment facilities at
NDWWTP to accept the increased wastewater from the military realignment in the


                                            41
northern Guam. The second phase would expand and upgrade the NDWWTP to provide
secondary treatment capacity.

The September 2010 Military Construction Project Data for JFY 2011 describes the
restoration and upgrade of the existing primary treatment facilities at the NDWWTP,
capacity and compliance improvements at the Hagatna WWTP, and Phase I collection
system improvements in northern and central Guam districts.

The planned JFY 2012 construction projects include the upgrade to secondary treatment
facilities at the NDWWTP and Phase II collection system improvements in northern and
central Guam districts.

The planned JFY 2013 construction projects include upgrades to the GWA’s Hagatna
WWTP from a primary treatment facility to a secondary treatment facility.

Additionally, NAVFAC PAC has planned and is awaiting authorization for funding from
Headquarters NAVFAC to implement interim capacity improvement requirements related
to housing for the temporary workforce of more than 18,000 off-island construction
workers.

Cost Estimate
NAVFAC PAC issued a contract to TEC, Inc. Joint Venture that included preparing the
preliminary cost estimates for a water utility study. NAVFAC PAC used these cost
estimates in preparing Military Construction Program documents (DD Forms 1391) for
all drinking water projects. However, NAVFAC PAC is not procuring the capital
improvements for the wastewater projects. The cost estimates were prepared as
programming documents in order for the Japanese Ministry of Defense to prepare budget
requests. Procurement of the capital improvements will be made directly by GWA. The
planned construction cost estimate for the wastewater projects is approximately $420.4
million.

The estimated construction cost for the interim upgrades at NDWWTP is $8 million as
stated in the preliminary design study. NAVFAC PAC has completed an independent
government cost estimate to validate the $8 million cost required for the interim capacity
upgrade.

Budget
The September 2010 DD Form 1391 for JFY 2011, 2012, and 2013 provided the
following estimated costs for the wastewater projects (see Table 5).




                                            42
                Table 5. JFY 2011 - 2013 Wastewater Cost Estimates
                         Fiscal Year        Total Requested
                                              (in $ million)
                          JFY 2011               $107
                          JFY 2012               $166.9
                          JFY 2013               $146.5
                            Total                $420.4

The DOD is seeking Japanese financing for improvements. Funding is anticipated as part
of the Japanese budget package, of which $420.4 million is expected for the wastewater
improvement projects. Funding for the projects should be available subsequent to JFY
2011 budget approval by the government of Japan. The package would accomplish
wastewater improvements at NDWWTP, while the JFY 2013 program would fund the
secondary treatment at the Hagatna WWTP.

NAVFAC PAC is seeking $8 million for the interim upgrade project from the
government of Japan 2009 budget set aside for mitigation purposes. However, it has yet
to receive approval for obligating the funds. (see ‘Observation: Interim Wastewater
Capacity’ on page 44).

Contract
No contract has been awarded to date as the Japanese funding is currently not available.

Schedule
The schedule for the Guam wastewater projects is contingent upon availability of the
government of Japan funding and subsequent contract awards for the wastewater projects.
Programmatic plans, based on the realignment roadmap schedule, call for completion by
2014. However, as a result of the adaptive program management, the pace and
sequencing of the projects may change.

Sustainment
Discussions between GWA and DOD continue on the best business approach to facilitate
the required wastewater system upgrades. The Final EIS stated that the approach could
involve a special purpose entity that would finance, develop, upgrade, operate and
manage the wastewater infrastructure associated with the military realignment.




                                           43
Observation: Interim Wastewater Capacity
       NAVFAC PAC is seeking $8 million in funding needed for the interim
       wastewater capacity upgrade from 6 mgd to 9 mgd at the NDWWTP. However, it
       has not yet obtained approval for obligating the funds. Additionally, since
       NDWWTP cannot consistently meet the NPDES permit requirements for
       wastewater treatment and discharge, the USEPA will not adjust the permit limits
       to allow additional flow. Consequently, the interim wastewater upgrades could be
       delayed and impact other military realignment projects.

Discussion
A temporary workforce consisting of more than 18,000 off-island construction workers
will be required during FY 2011-2014 to build the infrastructure needed for the military
realignment. In order to meet the demand of the temporary workforce, arrangements for
housing, power, water, and wastewater will need to be made. The existing capacity of
NDWWTP to treat 6 mgd of wastewater daily is barely enough to meet the current Guam
demand. Additional interim capacity is required to meet the anticipated wastewater
processing demand. A December 2010 preliminary design study contracted to Pacific
Program-Design Management Services JV by NAVFAC PAC, proposed that the interim
upgrades to the plant be commissioned by September 2011 to allow for predicted
additional average flow of up to 9 mgd. The estimated cost for the temporary
improvement is $8 million. NAVFAC PAC is seeking $8 million for the interim upgrade
project from the government of Japan 2009 budget set aside for mitigation purposes, but
has not yet received approval for obligating the funds.

On November 17, 2010, a quarterly hearing related to the stipulated order was held.
USEPA requested the court to require GWA to complete the construction of interim
treatment improvements at the NDWWTP by December 31, 2011, and achieve consistent
compliance with the interim effluent limits. If the NDWWTP cannot achieve and ensure
consistent compliance, USEPA will not adjust the permit limits to allow the additional
flow needed to house the construction workforce and the development of the military
realignment.

Observation Recap
NAVFAC PAC is seeking $8 million in funding needed for the interim wastewater
capacity upgrade from 6 mgd to 9 mgd at NDWWTP. If the NDWWTP cannot achieve
and ensure consistent compliance, USEPA will not adjust the permit limits to allow the
additional flow needed to house the construction workforce and the development of the
military realignment. However, NAVFAC PAC has yet to obtain authority for obligating
the identified funds. Consequently, temporary housing for the construction workforce
would not be available due to the lack of sewer connections.




                                           44
VI. Solid Waste
                                        Figure 13. Ordot Dump




         Source: Photo courtesy of DOD IG


Background
Requirements
Currently, the territory of Guam and DOD have separate solid waste facilities. All
civilian solid waste on Guam is disposed of at the Ordot Dump facility, which will close
once a new landfill is constructed. Solid waste from DOD base operations is disposed of
in one of the two DOD operated landfill sites – Andersen AFB and Apra Harbor Naval
Base. Additionally, DOD operates a recycling center located at Andersen AFB. The
plan for DOD is to close all of its landfills except Apra Harbor Naval Base Landfill,
which will continue to accept construction and demolition waste, send all of its solid
waste to the new territory of Guam landfill, and expand its recycling program.

Territory of Guam Requirements. On March 17, 2008, the District Court of Guam’s
Federal court order stated that all of the responsibilities, functions, duties, powers and
authority of all civilian solid waste operations would be assumed by an appointed
receiver, Gershman, Brickner & Bratton, Inc. Receivership is the process of appointment
by a court of a “receiver” to take custody of the property. Additionally, the court order
required the closure of Ordot Dump because of island-wide health and
environmental hazard caused by discharging leachate from the dump. Since the court
order, the receiver has opened a new USEPA-compliant landfill, the Layon Landfill.
Upon opening of Layon Landfill, the Ordot Dump closed. However, the Ordot Dump
will stay under receivership until the environmental cleaned up process is completed. In
addition, Layon Landfill will stay under receivership as long as the court deems
necessary. The receiver is currently contracting for an operator.
                                                 45
DOD Requirements. The two DOD-operated landfill sites are almost at capacity. Once
construction to Layon Landfill is complete, the DOD landfills will close to all solid waste
except Apra Harbor Naval Base Landfill which will continue to accept construction and
demolition waste. The DOD has written a letter of intent stating that DOD will start
sending solid waste to Layon Landfill once the landfill opens. DOD plans to send solid
waste at the current tipping fees rate set by the receiver. In the interim, before Layon
Landfill opens, the Andersen AFB Landfill will reach capacity and the Air Force will
have to send all of its solid waste to Apra Harbor Naval Base Landfill.

Additionally, DOD is planning to construct two new transfer stations – one in northern
Guam and one in southern Guam. The transfer stations will serve as access points for
solid waste going to Layon Landfill. The DOD also plans to expand the existing source
separation recycling programs and construct at least one DOD materials resource
recovery facility (MRRF). A MRRF would recover and segregate targeted recyclable
materials from the solid waste stream prior to the solid waste being disposed of at the
Layon Landfill or Apra Harbor Naval Base Landfill. The DOD is considering four
alternatives for construction of MRRFs, refuse transfer stations, and recycling centers:

      Alternative 1: Construct a MRRF with refuse transfer stations and recycling
       centers in northern and southern Guam.
      Alternative 2: Construct a MRRF with a refuse transfer station and recycling
       center in southern Guam, and construct a refuse transfer station and recycling
       center in northern Guam.
      Alternative 3: Construct a MRRF with a refuse transfer station and recycling
       center in northern Guam, and construct a refuse transfer station and recycling
       center in southern Guam.
      Alternative 4: Construct a MRRF with a refuse transfer station and recycling
       center in Barrigada, construct a recycling center in northern Guam and construct a
       recycling center in southern Guam.

Statutory and Regulatory Responsibilities
Territory of Guam Responsibilities. On March 17, 2008, the District Court of Guam
placed all public solid waste operations under the control of an appointed receiver. The
court order required the closure of Ordot Dump. Since the court order, the receiver has
started construction on the new USEPA-compliant landfill. The USEPA-compliant
landfill, Layon Landfill, opened on August 31, 2011.

DOD Responsibilities. The DOD is responsible for disposing DOD solid waste. DOD
will collect and deliver solid waste from on-base operations to transfer stations for Layon
Landfill. The same tipping fee rate will apply to the DOD as commercial tipping fees to
the landfill for disposal of solid waste.

Inclusion in Composite Program
Territory of Guam Inclusion. Civilian Guam’s solid waste operations and facilities are
under the receivership as appointed by the District Court of Guam. The receiver’s plan

                                            46
for Layon Landfill includes the disposal of DOD solid waste. As a result, DOD will not
have to build a new landfill.

DOD Inclusion. The current DOD landfill sites are operated solely by the DOD. The
landfills provide service to military personnel and residents of the bases as well as
commercial waste streams from base activities.

Cost Estimate
Territory of Guam Cost Estimate. The receiver developed cost estimates for the
closure of Ordot Dump and the construction of Layon Landfill, including new access
roads and transfer stations. The current cost estimate is $160 million; however, the
receiver stated to the court and the government of Guam that this estimate should be
considered very preliminary and would need to be reevaluated once a final plan for
closure is developed.

DOD Cost Estimate. For DOD’s solid waste program, DOD has created estimates for
the four alternatives presented in the requirements section. Table 6 gives a breakdown of
the cost estimates for each alternative being considered. These estimates are preliminary;
once an alternative is selected, a verified independent government cost estimate, with
backup data and supporting documents will be required.
          Table 6. Estimates for Cost of Military Solid Waste Alternatives
                                                                    Total Present
                   Alternative                                      Value Analysis
                                                                       50 years
                   Alternative 1 – Construct MRRFs with
                   refuse transfer stations and recycling              $457,800,000
                   centers in northern and southern Guam
                   Alternative 2 – Construct MRRF with
                   refuse transfer station and recycling center
                   in southern Guam and construct refuse               $417,400,000
                   transfer facility and recycling center in
                   northern Guam
                   Alternative 3 – Construct MRRF with
                   refuse transfer station and recycling center
                   in northern Guam and construct refuse               $419,400,000
                   transfer facility and recycling center in
                   southern Guam
                   Alternative 4 – Construct MRRF with
                   refuse transfer station in Barrigada and
                                                                       $478,300,000
                   construct recycling centers in northern
                   Guam and southern Guam
                 Source: “Recycling and Solid Waste Diversion Study for DOD Bases, Guam,”
                 April 26, 2010




                                                    47
Budget
Territory of Guam Budget. As part of the court order, the District Court of Guam
required the government of Guam to provide funds for the closure of Ordot Dump and
the construction of Layon Landfill. Initially, the government of Guam pursued budget
authority from two different sources to fund the receiver’s efforts. On March 26, 2009,
Bill No. 1(1-S) was passed, authorizing the government of Guam to issue Section 30
bonds, not to exceed $202,425,000, to fund the closure of Ordot Dump and the
construction of the new landfill. On July 20, 2009, USDA obligated $104 million
($88.5 million loan and $15.5 million grant) to fund the construction of Layon Landfill.
This USDA loan/grant was intended to replace a portion of the Section 30 bonds already
in place and to allow the bonds to be used for other Guam priorities. However, the
USDA loan/grant was turned away by the government of Guam on July 29, 2009. The
loan/grant was turned away due to several provisions in the American Recovery and
Reinvestment Act which specify that excess fund are required to be returned and cannot
be used for other areas in Guam.

The receiver stated that most of the contracts received were significantly under the
budget approved by the court. The receiver recommended to the court and the
government of Guam that any savings in the budget for Layon Landfill should be
reserved as a contingency until the final cost of the Ordot Dump closure is known. The
reserve would help to ensure that the cost of closing Ordot Dump would not affect the
rates paid by customers for the Layon Landfill.

DOD Budget. The DOD stated that they are funding the budget for the chosen
alternative. However, the source of funding has not been identified.

Contract
Territory of Guam Contract. The receiver was appointed on March 17, 2008. The
receivership was not awarded under an official contract, but rather, through a consent
decree from the District Court of Guam. Since being appointed, the receiver has issued
various contracts for construction of the new Layon Landfill.

On September 8, 2010, the receiver issued a request for proposal for an operator for
Layon Landfill. The contracted operator will be under the receiver’s control and run the
day-to-day operations of the landfill.

On November 8, 2010, the receiver issued a request for proposal for the closure and post-
closure plan preparation for Ordot Dump.

DOD Contract. The DOD currently has a contractor that collects solid waste on-base
and delivers the waste to the appropriate DOD landfill. In the new plan, DOD would
continue to contract for the solid waste collection on-base. This contractor would then
deliver the solid waste to the appropriate transfer station on the island.

Additionally, DOD will contract for the military construction of the MRRF and the
expansion of the recycling centers.

                                           48
Schedule
Territory of Guam Schedule. Layon Landfill opened on August 31, 2011; and at that
time, Ordot Dump closed.

DOD Schedule. The DOD has initiated a contract with the receiver in which the DOD
will start sending solid waste to Layon Landfill. On September 30, 2011, NAVFAC
Marianas initiated a contract with the receiver to establish the terms for the disposal of
solid waste generated by DOD facilities to a transfer station and in the Layon Landfill.
Additionally, since the DOD is still considering which solid waste alternative plan to
select, the schedule for constructing the solid waste transfer stations have yet to be
determined.

Sustainment
Territory of Guam Sustainment. The receiver estimated the life of Layon Landfill and
indicated that there should be approximately 30 years of airspace in the landfill. The life
analysis included the collection of DOD solid waste. However, the life analysis estimate
could vary based on the to-be contracted Layon Landfill operator, recycling programs,
and the flow of solid waste into the landfill.

DOD Sustainment. According to Executive Order 13423,

                Federal agencies are to conduct their environmental, transportation, and
                energy-related activities under the law in support of their respective
                missions, in an environmentally, economically, and fiscally sound,
                integrated, continuously improving, efficient, and sustainable manner.

Additionally,
                … the head of each agency shall … ensure that the agency … increases
                diversion of solid waste as appropriate, and … maintains cost effective
                waste prevention and recycling programs in its facilities.

According to Executive Order 13101, the Federal Government is required to improve the
use of recycled products and environmentally preferable products and services.
Additionally, the order states:

                … the head of each agency shall incorporate waste prevention and
                recycling in the agency’s daily operations and work to increase and
                expand markets for recovered materials. . .

In compliance with Executive Orders 13101 and 13423, Joint Region Marianas has
proposed to start a Qualified Recycling Program for its solid waste. With the program,
the DOD would sell recyclable material and receive profits from receivables and retain
sales proceeds obtained from Guam military and civilian individuals. Establishing the
Qualified Recycling Program would minimize the amount of solid waste generated as
well as increase the amount of waste diverted from disposal in landfills and incinerators.



                                                  49
Proceeds collected by the Qualified Recycling Program must first cover program costs.
Up to 50 percent of the remaining proceeds may be used for pollution abatement;
pollution prevention; composting; alternative fueled vehicle infrastructure support and
vehicle conversion; energy conservation; or occupational safety and health projects, with
first consideration given to projects included in the installation's pollution prevention
plans. Any remaining proceeds may be transferred to the nonappropriated Morale,
Welfare, and Recreation account or retained in the Qualified Recycling Program suspense
account to cover anticipated future program costs. However, at this time, the Qualified
Recycling Program is not funded.




                                           50
Observation removed per Errata
 Memo Dated May 14, 2012




           51
This page intentionally left blank




                 52
VII. Communication
                                                            
                     Figure 14. Guam Emergency Communication System




Source: Photos from “Guam Fire Department Enhanced 911 Emergency Reporting System Fund,” December 2003 & October 2010
& “A Citizen-Centric Report for Guam Fire Department,” February 2010


Background
Requirements
Government of Guam and the DOD in Guam currently only have the basic 911 services
that cannot process a caller’s telephone number and location automatically. 47 Code of
Federal Regulations § 54.101, states that emergency 911 services fall into two categories
– basic and enhanced. Basic 911 services forward calls to a single geographically
appropriate Public Safety Answering Point. Basic 911 service networks are not capable
of processing a caller’s telephone number and location automatically. However,
Enhanced 911 (E911) systems route 911 calls through a geographically appropriate
Public Safety Answering Point based on the caller’s location. The Enhanced 911 system
enables the dispatcher to automatically pinpoint the exact location of a caller, even
without the caller speaking.

The U.S. Congress established Public Law 108-494 on December 23, 2004, for the sake
of our nation’s homeland security and public safety a universal emergency telephone

                                                          53
number (911) that has state-of-the-art enhanced telecommunications capabilities should
be made available to all citizens in all regions of the nation – to include states and
territories. Such communications are also to be made a high national priority. The law
requires:

              The purposes of this title are -
              (1) to coordinate 911 services and E–911 services, at the Federal, State,
              and local levels; and
               (2) to ensure that funds collected on telecommunications bills for
              enhancing emergency 911 services are used only for the purposes for
              which the funds are being collected.

DOD Requirements. DOD issued a policy, DODI 6055.17 DOD Installation
Emergency Management Program, dated November 19, 2010 that states:

              All installations shall have:
                a. The availability of enhanced 911 services with recording capability
                   at domestic installations through either direct support
                   (Government-owned and -operated) or support from State and
                   local authorities off the installation.
                b. Requirements to subscribe for enhanced 911 services for Voice-
                   Over Internet Protocol users and emergency dispatch capabilities
                   for nondomestic installations

Currently, there are two DOD Public Safety Answering Points in Guam and neither is
fully enhanced. One is operated by Andersen AFB and another is operated by Joint
Region Marianas (JRM)/Navy. The existing Guam military Public Safety Answering
Points do not provide the Enhanced 911 (E911) capability as required by DODI 6055.17.
The Public Safety Answering Point’s emergency systems at Andersen AFB do not
provide the Automatic Location Information to the emergency operator if the 911 call is
made inside the AFB from official or commercial lines. The Public Safety Answering
Points’ emergency systems at the JRM/Navy do not provide the Automatic Location
Information and Automatic Number Information to the emergency operator if the 911 call
is made inside a JRM/Navy base from a commercial line, however, from an official line
the system will provide the Automatic Location Information. In addition, if an
emergency call is made from a wireless or Voice over Internet Protocol (VoIP) phone
inside the DOD installations, the Automatic Location Information and Automatic
Number Information of the caller are not provided to the Public Safety Answering Points’
operator (see ‘Communications Finding A’ on page 59).

Government of Guam Requirements. In coordination with U.S. Public Law 108-494,
the government of Guam issued Public Law 25-55 and 1999 (First) Regular Session, and
Section 4 states:

              There is hereby created, separate and apart from all other funds of the
              government, the "Enhanced 911 Emergency Reporting System Fund"
              ("Fund")" to be administered by the Department of Administration. The
              Fund is created to provide a source of funding for costs associated with
              an Enhanced 911 Emergency Reporting System. All the 911 surcharges
              collected by each [Local Exchange Carrier] LEC and [Commercial

                                                54
               Mobile Radio Service] CMRS provider shall be paid into the Fund. The
               money collected and interest earned shall be used by the [Guam Fire]
               Department (GFD) solely for Enhanced 911 equipment and system
               costs as described in this Act.

The government of Guam also issued Public Law 28-44 that mandates the Public Utilities
Commission to monitor the collection of the surcharge to ensure accuracy, completeness,
and timeliness of Enhanced 911 surcharge remittance made by service providers.

The government of Guam created the Enhanced 911 Emergency Reporting System Fund
under Guam Public Law 25-55, which collects one dollar per month for the surcharge and
interest. The fund was created for the sole purpose of funding just and reasonable
expenses in operating and maintaining the Enhanced 911 system. The Office of Public
Accountability found that the Guam Fire Department used the fund for administrative
expenses rather than the Enhanced 911 equipment and system costs. As a result, the
government of Guam has not upgraded its basic emergency 911 system to the Enhanced
911 system that includes automatic identification of location and number information
(see ‘Communications Finding B’ on page 62).

Statutory and Regulatory Responsibilities
U.S. Public Law 108-494 was issued on December 23, 2004, to use a universal
emergency telephone number (911) that has state-of-the-art enhanced
telecommunications capabilities. The enhanced communications are to be made
available to all citizens in all regions of the states and territories. Such communications
are to be made a high national priority and require the coordination of states and local
governments and their resources working in cooperation with Federal leadership as well
as numerous organizations dedicated to delivering emergency communications services.

DOD Responsibilities. The DOD-issued instruction DODI 6055.17, DOD Installation
Emergency Management Program, requires all DOD installations to have the Enhanced
911 Initial Operation Capability in January 2011. The JRM/J3 is responsible for the
commercial management system and JRM/J6 is responsible for the technology and
leading the telecommunications infrastructure.

Government of Guam Responsibilities. Under Guam Public Law 25-55, Guam is to
collect one dollar per month for the surcharge and interest to operate and maintain the
Enhanced 911 system.

Inclusion in Composite Program
DOD Inclusion. The JRM/J3 is responsible for the commercial management system and
JRM/J6 is responsible for the technology and leading the telecommunication
infrastructure. Currently, there is no formal program established to implement the
interfacing and upgrading of the Enhanced 911 systems.

Government of Guam Inclusion. The government of Guam established the Enhanced
911 Emergency Reporting System Fund in an attempt to advance the basic 911 system to


                                               55
the Enhanced 911 system. There is no formal program established that implements the
upgrading of the basic 911 system to the Enhanced 911 system.

Cost Estimate
DOD Cost Estimate. The rough cost estimate for life cycle management upgrades to the
current Guam communications system runs from $10 million to $20 million. It would
also cost $1 million to get a location data dispatcher system, and $6-$9.5 million to
upgrade the current infrastructure throughout Guam. The cost estimate is preliminary
and would need to be reevaluated once a final plan is developed for the DOD.

In addition to the rough cost estimates for the life cycle management and infrastructure
upgrades throughout Guam, the cost estimates to upgrade the Public Safety Answering
Points from the basic 911 to an Enhanced 911 system are:

   1. Consolidate Air Force and Navy Coordination of Access to Information Requests
      System (CAIRS) databases and interface Andersen Public Safety Answering
      Point to JRM/Navy Automatic Location Information database and load all official
      Automatic Location Information into the JRM/Navy Automatic Location
      Information database. This project has upgraded and integrated the Andersen
      AFB and Navy database systems, and has allowed the Andersen AFB Public
      Safety Answering Point using the Navy Public Safety Answering Point Automatic
      Location Information database for the automatic location. This program costs
      roughly $825,800.

   2. Incumbent local exchange carrier (ILEC) and the government of Guam 911
      system implement a Selective Router function and Automatic Location
      Information/Automatic Number Information database. This project has allowed
      the government of Guam Public Safety Answering Point to route 911 calls from
      the DOD installation back to the appropriate Public Safety Answering Point
      automatically. The non-recurring cost estimate is roughly $680,600 and the
      monthly recurring cost is undefined.

Government of Guam Cost Estimate. Representatives from Guam Homeland Security
provided contractor cost estimates for the life cycle management upgrades to the current
communications system is between $8-12 million and $10-12 million, respectively. These
cost estimates are preliminary and would need to be reevaluated once a final plan is
developed for the DOD.

Budget
DOD Budget. Currently, there is no budget established to fund projects to upgrade the
911 systems at the DOD installations. The Navy and Andersen AFB are working
together with JRM/J6 on the unfunded requirements to upgrade the current emergency
911 systems.

Government of Guam Budget. To assist the states and territories, U.S. Public
Law 108-494 establishes Enhanced 911 implementation grants. The law provides for a

                                            56
matching requirement grant. “The Federal share of the cost of a project eligible for a
grant under this section shall not exceed 50 percent.”

The Department of Homeland Security provides to states and territories Emergency
Management grants. Department of Homeland Security is committed to contributing
$1.5 million to Guam on an annual basis; however, it is not specifically for the
communications infrastructure. The government of Guam prioritizes all requests for
Emergency Management grant funds. In addition to the Department of Homeland
Security grant, the Department of Interior provides $1-$1.5 million annually to Guam for
technical assistance/infrastructure.

The government of Guam established an Enhanced 911 Emergency Reporting System
Fund program under Guam Public Law 25-55 to fund the expense of operating and
maintaining the 911 system. The government of Guam also implemented a monthly
surcharge fee of no more than one dollar to residential and commercial
telecommunications accounts. According to Guam Homeland Security representatives,
Guam Public Law 25–55 does not clearly state whether the funds are to be solely used for
Enhanced 911 operations and maintenance. Therefore, the Guam Fire Department is
currently using the funds toward their administrative salaries (see ‘Communications
Finding B’ detail on page 62).

Contract
Currently, there is no contract in place to upgrade the DOD or government of Guam
Public Safety Answering Point.

Schedule
The DOD and government of Guam Public Safety Answering Point upgrades are still
being discussed. Currently, there is no schedule available for the Enhanced 911 program.

Sustainment
DOD Sustainment. The JRM/J3 is responsible for the commercial management system
and JRM/J6 is responsible for technology and leading the telecommunication
infrastructure.

Guam Sustainment. The government of Guam is responsible for the installation and
performance of all other equipment and work necessary for the completion of 911
projects.

The government of Guam established a surcharge tax program for Enhanced 911 with the
intent to provide just and reasonable expenses to operate and maintain costs associated
with the Enhanced 911 system.

Initially, the 911 emergency system was installed by a contractor who was hired by the
government of Guam. This contract began in 2000 with the initial installation and ended
on December 31, 2009. The Public Utilities Commission has taken authority for the
collection of surcharges. However, due to the lack of guidance on proper fund allocation,

                                            57
the Guam Fire Department continues to apply the fund toward their administrative
salaries instead of Enhanced 911 operation and maintenance.




                                          58
Finding A: Lack of Enhanced DOD Emergency
Communications
       The telephone number and location information of calls originating inside DOD
       installations are not automatically provided to DOD emergency 911 operators by
       the DOD installations' Public Safety Answering Points. This occurs because the
       Guam DOD installations have not implemented the Enhanced 911 system’s Initial
       Operation Capability as required by DODI 6055.17. The lack of ability to
       generate automatic location and number information in the event of an emergency
       can increase the response time and the risk to life, health, and safety of personnel.

Discussion
DOD issued DODI 6055.17, DOD Installation Emergency Management Program, on
January 13, 2009 stating:

              All installations shall have:
                a. The availability of enhanced 911 services with recording capability
                   at domestic installations through either direct support
                   (Government-owned and -operated) or support from State and
                   local authorities off the installation.
                b. Requirements to subscribe for enhanced 911 services for Voice-
                   Over Internet Protocol users and emergency dispatch capabilities
                   for nondomestic installations

DODI 6055.17, Glossary, Change 1 defines Enhanced 911 as:

              A telephone system consisting of network, database, and Enhanced 911
              equipment that uses the single three-digit number “911” for reporting
              police, fire, medical, or other emergency situations to a central location,
              while automatically associating a physical address with the calling
              party’s telephone number.

Per DODI 6055.17, the Implementation Plan requires DOD to ensure Initial Operational
Capability within 2 years - by January 2011, and Full Operational Capability within 5
years - by Jan 2014.

In order for the military Public Safety Answering Points to automatically recognize the
911 caller’s location and telephone number from land line, wireless, and VoIP, the Public
Safety Answering Points need to have technologies including a telephone switch that is
able to recognize numbers, an Automatic Location Information database server with
addresses, database clients, equipment that can calculate a location from cell phone
towers, and the capability to identify the location based on VoIP.

Andersen Air Force Base Public Safety Answering Points
The primary Public Safety Answering Point has a personal computer that runs the
Automatic Location Information client and is connected to the government of Guam
Public Safety Answering Point Automatic Location Information database server via a
public data connection.

                                                 59
There are four different methods that emergency calls could be made within
Andersen AFB - official lines (base offices), commercial land lines (base housing),
wireless (cell phones), and internet-based VoIP. The primary Public Safety Answering
Point Automatic Location Information client has no capability to automatically determine
the location of the caller from any of these methods of emergency calls. It only displays
the verbally obtained location information that either Andersen AFB Public Safety
Answering Point receives or the government of Guam Public Safety Answering Point
manually transfers to the Andersen AFB Public Safety Answering Point.

Joint Region Marianas/Navy Public Safety Answering Points
The primary Public Safety Answering Point has an Automatic Location Information data
server and Automatic Location Information client, but no direct network interface to the
government of Guam Public Safety Answering Point. Therefore, when Navy official
lines are used, the Public Safety Answering Point has some capability to determine the
automatic location information of the callers.

Emergency calls from commercial land lines, wireless, and internet-based VoIP number
and location information must be verbally obtained by emergency 911 operators and
manually transferred to the JRM/Navy Public Safety Answering Point.

Finding Recap
The telephone number and location information of calls originating inside the
installations are not provided to the emergency 911 operator automatically by the DOD
Public Safety Answering Point as required by the DODI 6055.17. The DOD
installations’ Public Safety Answering Points have basic emergency 911 capability;
however, DOD installations do not have Enhanced 911 Initial Operational Capabilities
requirements. Although an Enhanced 911 system is required by DOD policy, the Navy
and Air Force have not funded or coordinated plans to upgrade the basic emergency 911.

Recommendation
We recommend that the Navy’s OPNAV N2/N6 prepare, complete, and coordinate
programs to upgrade the basic emergency 911 system to Enhanced 911 to avoid increases
in emergency response time, and risks to life, health, and safety of personnel.
Additionally, until the Enhanced 911 system is installed and operational, we recommend
advising incoming military personnel and their families, during island in processing,
about the 911 limitations.

Management Comments on the Finding
The Under Secretary of the Navy (USN), Commander of Navy Installations Command
(CNIC), N37 did not agree with the communications finding A. USN, CNIC N37 stated,
“JRM [Joint Region Marianas] does not have ownership, authority or management
responsibility over the DoD or Navy Phone systems resident on DoD Installations on
Guam, to include the phone systems and location and number databases.” USN, CNIC
N37 went on to state, “The assignment of responsibility for enhancement to an E911
capability should be assigned to OPNAV N2/N6.”

                                           60
Our Response
Initially, we addressed the finding to the Commander of Joint Region Marianas, however,
since the Navy, OPNAV N2/N6 is responsible for Navy network and communications
investments through centralized coordination, we have changed the finding to be
addressed to OPNAV N2/N6.




                                          61
Finding B: Lack of Enhanced Guam Emergency
Communications
       The government of Guam has not implemented the Enhanced 911 system. The
       current government of Guam 911 system has reached the end of its life cycle for
       maintenance support. This condition occurred because the government of Guam
       used the "Enhanced 911 Emergency Reporting System Fund" for administrative
       personnel salaries instead of Enhanced 911 operations and maintenance. As a
       result, the government of Guam does not have an Enhanced 911 system with the
       automatic location and number information. The absence of the automatic
       location and number information may increase emergency response time, and
       risks to life, health, and safety of personnel.

Discussion
The 108th U.S. Congress created Public Law 108–494, Enhanced 911 Services on
December 23, 2004. The law applies to all states of the U.S., the District of Columbia,
Puerto Rico, the Northern Mariana Islands, and other territories or possessions of the U.S.

To assist the states and territories, the Public Law 108–494 has established Enhanced 911
implementation grants to provide for a matching requirement grant. Public Law 108–494
also put a the cap on the grant as it states, “The Federal share of the cost of a project
eligible for a grant under this section shall not exceed 50 percent.”

Currently, the government of Guam 911 system is not in compliance with the Enhanced
911 system requirements. The 911 system does not provide location information
automatically if the calls originate from a commercial land line on military installations,
wireless or VoIP to the emergency 911 Public Safety Answering Point’s operator. The
DOD is codependent upon the government of Guam’s 911 system because calls are
routed through Guam’s emergency 911 Public Safety Answering Point’s operator. In
order for government of Guam operators to automatically recognize the 911 caller’s
location and telephone number from land line, wireless, and VoIP, the Public Safety
Answering Points need to have various technologies such as a telephone switch that is
able to recognize numbers, an Automatic Location Information database server with valid
current addresses, database clients, equipment that can calculate caller locations from cell
phone tower signals, and capability to identify the location based on a VoIP.

Emergency calls inside military installations from the commercial land lines route via the
public network to the government of Guam Public Safety Answering Point. Currently,
the Public Safety Answering Point’s operator has to query the caller to determine the
caller’s telephone number and location information.

The current government of Guam Public Safety Answering Point does not have a
hardware/software system to identify the location of a wireless caller. There is no
Automatic Number Information and Automatic Location Information associated with
wireless/cell phone calls and the Public Safety Answering Point’s operator will query the
caller in order to determine the Automatic Number Information and Automatic Location
Information.
                                            62
Emergency calls from internet-based VoIP phone routes via the global internet to the
Public Safety Answering Point located in the U.S. mainland. Currently, government of
Guam Public Safety Answering Points do not have hardware/software systems to identify
the location of the caller based on VoIP. No Automatic Number Information and
Automatic Location Information are associated with internet-based VoIP.

Additionally, emergency calls from a military resident residing off-base will only be
routed through the government of Guam Public Safety Answering Point and will never be
covered by any enhancement on the DOD bases.

A vendor was contracted to support the system with a Local Automatic Location
Information database server through December 31, 2009. No additional support has been
contracted and no parts or materials have been upgraded to the current system.
According to the vendor, the government of Guam emergency system was installed in
spring 2000 and has reached the end of its life cycle for maintenance support.

In enacting U.S. Public Law 108-494, Congress found that for the sake of our Nation's
homeland security and public safety, a universal emergency telephone number (911) that
is enhanced with the most modern and state-of-the-art telecommunications capabilities
possible should be available to all citizens in all regions of the Nation. The purpose of
Public Law 108-494 is to coordinate 911 services and Enhanced 911 services at the
Federal, State, and local levels which includes U.S. territories such as Guam. The
government of Guam has not upgraded the emergency system with the current
technology. Furthermore, the system parts are no longer manufactured by the original
vendor.

In effort to create a budget for maintenance and upgrades, the Guam Department of
Administration (DOA) established Guam public laws to assess monthly charges to all
Guam telephone/internet users.

Guam Public Law 25-55, Regular Session, Section 4 states:

               There is hereby created, separate and apart from all other funds of the
               government, the "Enhanced 911 Emergency Reporting System Fund"
               ("Fund")" to be administered by the Department of Administration. The
               Fund is created to provide a source of funding for costs associated with
               an Enhanced 911 Emergency Reporting System. All the 911 surcharges
               collected by each [Local Exchange Carrier] LEC and [Commercial
               Mobile Radio Service] CMRS provider shall be paid into the Fund. The
               money collected and interest earned shall be used by the [Guam Fire]
               Department (GFD) solely for Enhanced 911 equipment and system
               costs as described in this Act.

Guam Public Law 25–55, Section 7, Definition of "911" Equipment and System, part (a)
states:



                                                 63
               (a) For purposes of this Act, "enhanced 911 equipment' means the
               equipment dedicated to the operation of, or use in, the establishment,
               operation or maintenance of an enhanced "911" system, including
               customer premises equipment, automatic number identification, or
               automatic location identification controllers and display units, printers,
               recorders, software and other essential communication equipment
               required by the system.

Guam Public Law 25–55, Section 7, Definition of "911" Equipment and
System, part (d), states, “An enhanced 911 system includes the personnel
required to acquire, install, operate and maintain the system.”

Furthermore, Guam Public Law 28-44 mandates the Public Utilities Commission to
monitor the collection of the surcharge to ensure accuracy, completeness, and timeliness
of Enhanced 911 surcharge remittance made by the service provider.

The government of Guam does not have an Enhanced 911 system, however the Guam
Fire Department is using the funds created for Enhanced 911 to pay their administrative
salaries.

Finding Recap
The government of Guam has not implemented the Enhanced 911 system. The
information of land lines, wireless and internet callers on the island of Guam does not
automatically provide to the emergency 911 operator the Automatic Location Information
of the callers as required by Enhanced 911. If the Public Safety Answering Point’s
operator does not verbally obtain the address location and phone number information of
the caller, there may be an increase in emergency response time, and the risk to the life,
health, and safety of the caller.

The current government of Guam 911 system installed in the year 2000 is unsupportable
as it has reached the end of its life cycle for maintenance support. Due to the lack of
guidance for proper fund allocation, the Public Utilities Commission has inadequately
monitored the collection of the surcharges and the Guam Fire Department continues to
apply the resources toward their administrative salaries. As a result, Guam's emergency
response system has not been upgraded to an Enhanced 911 system.

Recommendation
Due to the codependency of a DOD Enhanced 911 system in conjunction with the
government of Guam’s 911 system, we recommend that the OPNAV N2/N6 work in
conjunction with the government of Guam to install the Enhanced 911 system so off-base
and on-base residence are ensured a timely response. 

Management Comments on the Finding
The Under Secretary of the Navy (USN), Commander of Navy Installations Command
(CNIC), N37 did not agree with the communications finding B. USN, CNIC N37 stated,
“JRM [Joint Region Marianas] does not have ownership, authority or management
responsibility over the DoD or Navy Phone systems resident on DoD Installations on

                                                  64
Guam, to include the phone systems and location and number databases.” USN, CNIC
N37 went on to state, “The assignment of responsibility for enhancement to an E911
capability should be assigned to OPNAV N2/N6.”

Our Response
Initially, we addressed the finding to the Commander of Joint Region Marianas, however,
since the Navy, OPNAV N2/N6 is responsible for Navy network and communications
investments through centralized coordination, we have changed the finding to be
addressed to OPNAV N2/N6.




                                          65
This page intentionally left blank




                 66
VIII. Other Areas of Concern
Background
During our site inspections in Guam and while reviewing collected information we noted
several ‘Other Areas of Concern’ that fell outside the scope of this report but were of
important note. The observations in this section are brief descriptions of those concerns.

Observation: Shortage of Labor Workers
The difficulty in attracting laborers to Guam to fill the demand for all construction jobs
due to lower wage may cause a shortage of construction workers in Guam. The labor rate
is significantly lower in Guam than the rest of the country. For example, an electrician
would be paid approximately $30 per hour on the U.S. mainland instead of $15.45 per
hour on the island of Guam. The lower wages for construction workers would present a
problem of labor availability to fill the demand for construction jobs.

According to NAVFAC and the Census Bureau’s population study, as of 2008, there
were 5,600 Guam laborers on the island. Construction labor will need to increase to meet
the peak demand of year 2013 to 15,913 construction workers. In addition to the
construction workers, 20,095 indirect jobs are expected. NAVFAC projections indicate
that there will be a shortage of available workers to fill the demand for labor jobs.

The National Defense Authorization Act for Fiscal Year 2010 H.R. 2647 – U.S. Public
Law 111-84 – signed on January 6, 2009, which also addresses the Guam situation of
wage control, workforce shortage, and employment of visa workers. The two major
sections, 2833 and 2834, of the bill discuss the prevailing wage requirements for the
workforce and the composition of workforce. U.S. workers will have access to direct job
opportunities as Guam positions become available. The H2b visas holders will be
eligible for employment; however, the contractors will have to submit a copy of the
employment to the Secretary of Labor 60 days before start date. The employment offer
will have to include a description of wages and other terms and conditions of
employment. In addition, the contractors will have to offer the prevailing wage rates set
for Guam by the Davis Bacon Act. The October 2008 letter from the governor of Guam
supports these labor salaries.

However, as a result of the adaptive program management, the pace and
sequencing of the projects may change. Notwithstanding, a shortage of labor will
hinder the ability to achieve the reconstruction and improvements of Guam’s
infrastructure needed for the realignment.


Observation: Federal Aviation Administration Land
Re-acquisition
In 1999/2000 land owned by the Federal Aviation Administration was returned to the
Guam Chamorro Land Trust Commission and is considered ancestral land. Now, the

                                            67
DOD has plans that would re-acquire 681 acres of that land back to use as part of the
contiguous base along route 3, to form one cantonment; the planned education centers
will be placed on the site. NAVFAC PAC has been in negotiations but the Chamorro
Land Trust Commission would like to keep their historic land. As part of the Final EIS,
the DOD has developed several alternative options that would have to be chosen if the
land cannot be re-acquired. Any alternatives that do not include the Federal Aviation
Administration Land would require a base configuration that would be non-contiguous to
the Main Cantonment

Observation: Route 15 Firing Ranges
NAVFAC PAC is negotiating the procurement of additional lands from Chamorro Land
Trust Commission where the Guam Racing Federation race track is located. The planned
expansion will be for live-fire training ranges along route 15. However, Guam Public
Law 30-06 designated that the property shall not be made available to DOD for the
purpose of construction and operation of a firing range. In November 2011, the Navy
filed a declaration with the court indicating that it will conduct a two-year supplemental
review to include a new study to further examine alternative range locations. If the DOD
is able to acquire the land, the DOD will work with Guam International Raceway
officials as ranges are designed and constructed to minimize impacts to raceway facilities
and seek compatible operational solutions that benefit both raceway patrons and the
DOD.

Observation: Reduction of Marine Training Area
According to Marine Corps Forces, Pacific, there are training and readiness requirement
shortfalls. The shortfalls stem from a reduction in training ranges from 52,000 acres in
Okinawa to 10,900 acres in Guam. Marine Corps Forces, Pacific identified this as a
significant issue because their mission requires properly trained Marines to perform and
maintain core competencies. The Marines are looking into establishing training sites on
other Marianas islands to fill the shortfall.

Observation: Federal Bureau of Investigations Request
The Federal Bureau of Investigations stated that most of their cases arise from public
corruption and that it is a bigger issue on the island than counterterrorism. The Federal
Bureau of Investigations representatives requested DOD IG to provide Defense Criminal
Investigation Service contact information for agents in Hawaii. DOD IG provided the
contact information.

Observation: Local Concerns about Radiation in the
Harbor
Guam officials are demanding that the USEPA require the U.S. military to test for
radiation contamination in Apra Harbor before the dredging and dumping of sediment is
approved. Local news has alleged that U.S. Navy ships have leaked radioactive water in
Apra Harbor. Media reports stated that given the nuclear history of the Mariana Islands,
it is reasonable to expect that there is radioactive sediment in the harbor.

                                           68
Appendix A. Scope and Methodology
We conducted this engineering review from May 2010 to April 2011. Our overall
objective was to report on the development of program and contract infrastructure
technical requirements for the Guam Realignment Program. Specifically, we reviewed
the development of program and contract infrastructure requirements to include cost
estimates and budgets. Our engineering review was conducted as part of the oversight of
the Interagency Coordination Group of Inspectors General. We developed a composite
program to break down the infrastructure technical requirements for the Guam
Realignment Program into seven areas: port; roads; power generation, transmission, and
distribution; drinking water; wastewater; solid waste; and communications.

We inspected the existing infrastructure facilities on location, and reviewed the
engineering improvements and supporting documentation. For each of the infrastructure
area, the scope of our engineering review included: infrastructure area requirements,
statutory and regulatory responsibilities, inclusion in the composite program, cost
estimates, budgeting, contract, schedule, and sustainment.

We conducted and reviewed each infrastructure requirement using the following six
steps:

       •   Step 1: Infrastructure Requirements
              Research, document, and reference the Guam Realignment Infrastructure
              Requirements that have been proposed for this infrastructure element.
              Review the validation of each requirement. Include each requirement in
              our requirements matrix and link it to the requirement and validation
              documentation work paper. Include assessment review of the timing of
              the requirement. Also review the infrastructure element with a view to
              identifying requirements or better alternatives that have not been
              proposed.

       •   Step 2: Statutory and Regulatory Responsibilities
              Research, document, and reference the statutory and regulatory
              responsibilities and requirements for each of the government departments
              involved with the infrastructure. This work will form the criteria used in
              reviewing the inclusion or acceptance of each validated infrastructure
              requirement in Step 3.

       •   Step 3: Inclusion in Composite Program
              Determine whether each validated Guam Infrastructure requirement
              identified in Step 1 is included in the Composite Program; i.e., a
              government agency has accepted the responsibility. Research, document,
              and reference the accepted responsibility for each validated requirement.
              If a validated requirement has not been accepted, review the impact and
              recommend who “should” be responsible for it. Refer to Step 2 for criteria
              and link work papers to our requirements matrix.


                                           69
      •   Step 4: Cost Estimate
             Research, document, and reference the cost estimates for each
             requirement. Review the methodology and adequacy of the cost estimates
             against appropriate criteria. Identify substantiating documentation,
             validations and/or certifications for the cost estimates.

      •   Step 5: Budget
             Research, document and reference the source of budgeting/funding.
             Review adequacy of budgeting/funding against the cost estimates. Review
             the impact of budgeting/funding for each requirement, including the
             impact of timing.

      •   Step 6: Contract
             Research, document, and reference the inclusion of each infrastructure
             requirement into a contractual vehicle. Review the contractual timeliness
             and inclusion of technical requirements in the statement of work.

We visited the following locations:
       • San Francisco, CA: August 10, 2010 – August 12, 2010
               o DOD Office of Economic Adjustment coordination meeting with
                   Guam Federal Stakeholders
               o Meet with Governor of Guam
       • Hawaii: September 1, 2010 – September 3, 2010 & September 21, 2010 –
           September 24; 2010
               o Entranced and exited with:
                       Pacific Command
                       Commander of U.S. Pacific Fleet
                       Marine Force Command, Pacific
                       Naval Facilities Engineering Command, Pacific
       • Guam: September 4, 2010 – September 21, 2010
               o Meet with Governor of Guam’s Office
               o Site visit and interviews with each reviewed area




                                         70
We contacted personnel from the following components and agencies:

       Under Secretary of Defense for Acquisition, Technology and Logistics
       Under Secretary of Defense for Policy
       Under Secretary of Defense (Comptroller)/Chief Financial Officer
       Under Secretary of Defense for Personnel and Readiness
       Under Secretary of Defense for Intelligence
       Commander, U.S. Pacific Command
       Commander, U.S. Special Operations Command
       Commander, U.S. Joint Forces Command
       Assistant Secretary of Defense for Networks and Information
               Integration/Chief Information Officer
       Assistant Secretary of the Air Force (Financial Management and Comptroller)
       Director, Defense Finance and Accounting Service
       Director, Defense Logistics Agency
       Director, Joint Staff
       Auditor General, Department of the Army
       Naval Inspector General
       Air Force Inspector General
       DOD, Office of Economic Adjustment
       Department of Agriculture
       Department of Energy
       Department of Homeland Security
       Department of the Interior
       Department of Transportation
           •    Maritime Administration
           •    Federal Highways Administration
       Environmental Protection Agency
       Federal Communications Commission
       Governor of Guam
       Government Accountability Office
       Federal Bureau of Investigations
       Joint Guam Program Office, HQ
       Naval Facilities Command, HQ
       Naval Facilities Command, Marianas
       Naval Facilities Command, Pacific
       Pacific Command
       Marine Forces Command, Pacific
       Commander of United States Pacific Fleet, IG
       Joint Guam Program Office, Forward




                                         71
We have removed the following section of the draft report from this report, based on
management comments on the draft report or because of changes described below that
have occurred since the initiation of this review:

       Observation: Roads Cost - This observation compared the higher cost of road
       construction in Guam to road construction in Hawaii. The observation was
       removed because the cost of the road construction in Guam has changed. Since
       the initiation of our review, increased competition has been introduced into the
       Guam market reducing costs and making the cost comparable to Hawaii. For this
       reason we found it was necessary to remove this observation because the situation
       has become obsolete.

       Finding: Drinking Water Cost Estimates – This finding stated that NAVFAC PAC
       did not provide an approved independent government cost estimate with backup
       data and supporting documents of architect-engineering services for drinking
       water projects, as required by FAR 36.605 and UFC 3-740-05. The removal of
       this finding was based on management comments. Originally, the plan was for
       NAVFAC PAC to act as the procuring agent for drinking water upgrades. As
       plans in Guam progressed and changed, NAVFAC PAC was no longer the
       procuring agent and instead Guam Water Authority became the procuring agent.
       The requirement of an independent government cost estimate only applies to
       federal procurement.

       Finding: Wastewater Cost Estimate - This finding stated that NAVFAC PAC did
       not provide an approved independent government cost estimate with backup data
       and supporting documents of architect-engineering services for wastewater
       projects as required by FAR 36.605 and UFC 3-740-05. The removal of this
       finding was based on management comments. Originally, the plan was for
       NAVFAC PAC to be the procuring agent for wastewater upgrades. As plans in
       Guam progressed and changed, NAVFAC PAC was not longer the procuring
       agent and instead Guam Water Authority became the procuring agent. The
       requirement of an independent government cost estimate only applies to federal
       procurement.

       Observation A: Solid Waste Contingency Plan – This Observation stated that the
       solid waste receiver had no plan as to where to place the solid waste in the event
       that Ordot Dump runs out of space prior to the completion of the Layon Landfill.
       Neither the receiver nor the government of Guam has developed a contingency
       plan in the event of a further delay to the opening of Layon Landfill. The
       observation was removed because Layon Landfill opened on August 31, 2011 and
       the need for a contingency plan has been overcome by events.




                                           72
Appendix B. Memorandum of Condition
Issued to Department of Transportation




                    73
74
Appendix C. Prior Coverage
During the last five years, the Government Accountability Office (GAO) has issued eight
reports discussing Defense Infrastructure as it relates to Guam. Unrestricted GAO
reports can be accessed over the internet at http://www.gao.gov. Additionally, in the past
five years, the Guam Office of Public Accountability (OPA) issued two reports
discussing Defense Infrastructure as it relates to Guam.

GAO
GAO-10-72, Defense Infrastructure Report, “DOD Needs to Provide Updated Labor
Requirements to Help Guam Adequately Develop Its Labor Force for the Military
Buildup,” October 2009.

GAO-09-653, Defense Infrastructure Report, “Planning Challenges Could Increase Risks
for DOD in Providing Utility Services When Needed to Support the Military Buildup on
Guam,” June 2009.

GAO-10-90R, Defense Infrastructure Memo,” Defense Infrastructure: Guam Needs
Timely Information from DOD to Meet Challenges in Planning and Financing Off-Base
Projects and Programs to Support a Larger Military Presence,” November 13, 2009.

GAO-09-500R, Defense Infrastructure Memo, “High-Level Leadership Needed to Help
Guam Address Challenges Caused by DOD Related Growth,” April 9, 2009.

GAO-08-1005, Defense Infrastructure Report, “Opportunity to Improve the Timeliness
of Future Overseas Planning Reports and Factors Affecting the Master Planning Effort
for the Military Buildup on Guam,” September 2008.

GAO-08-427, Defense Logistics Report, “Navy Needs to Develop and Implement a Plan
to Ensure That Voyage Repairs Are Available to Ships Operating near Guam when
Needed,” May 2008.

GAO-08-722T, Defense Infrastructure Report, “Planning Efforts for the Proposed
Military Buildup on Guam Are in Their Initial Stages, with Many Challenges Yet to Be
Addressed,” May 2008.

GAO-07-1015, Defense Infrastructure Report, “Overseas Master Plans Are Improving,
but DOD Needs to Provide Congress Additional Information about the Military Buildup
on Guam,” September 2007.




                                           75
Guam OPA
OPA Report No. 10-06, “Guam Fire Department Enhanced 911 Emergency Reporting
System Fund,” October 2010.

OPA Report No. 03-10, “Guam Fire Department Enhanced 911 Emergency Reporting
System Fund,” December 2003.




                                      76
Appendix D. Summary of Report Comments
and Our Response
Department of Transportation, Maritime Administration
Comments on Finding: Port Bulkhead
The USDOT, MARAD agreed with the Port Bulkhead finding. MARAD stated,
“MARAD recognizes that structural deterioration to the bulkhead threatens the Port’s
capability to provide safe and sufficient capacity. MARAD will use every opportunity to
emphasize that the bulkhead integrity should be the Port Authority’s top priority.”

MARAD has initiated actions to ensure that the structural deterioration to the bulkhead is
identified. In their response they stated, “To focus on these actions, MARAD has
initiated an independent engineering review to evaluate the existing defects in Berths F-4,
F-5, and F-6.” MARAD went on to state that they expect to receive the independent
engineering report in October. In addition, MARAD stated, “MARAD will ensure that
the results of its independent review are appropriately considered in finalizing the
Implementation Plan.”

Our Response
The USDOT, MARAD comments are responsive and the actions meet the intent of the
recommendation.

Naval Facilities Engineering Command, Pacific Comments on
Finding: Drinking Water Cost Estimates
The NAVFAC PAC did not agree with the drinking water cost estimates finding.
NAVFAC PAC stated, “NAVFAC PAC is not procuring the capital improvements for the
water utility identified in this report and consequently the FAR would not apply.
Additionally, NAVFAC PAC did prepare independent government cost estimates of
sufficient detail and peer review to meet programming objectives of providing assistance
in funding justification for the Government of Japan (GoJ) for the proposed capital
improvements.” NAVFAC PAC went on to state, “A private entity will be contracted on
a long-term basis to meet DoD water service requirements, and during the lifetime of that
service contract, the private entity will retain ownership of the capital improvements.”

Our Response
NAVFAC PAC’s comment on the drinking water finding was responsive and we agree
with their reasoning and response. The documentation and plans indicated that the
project was Military Construction (MILCON). Since, NAVFAC PAC is not the
procurement agent, there is no finding.




                                            77
Naval Facilities Engineering Command, Pacific Comments on
Finding: Wastewater Cost Estimate
The NAVFAC PAC did not agree with the wastewater cost estimates finding. NAVFAC
PAC stated, “NAVFAC PAC is not procuring the capital improvements for the
wastewater utility identified in this report and consequently the FAR would not apply.
Additionally, NAVFAC PAC did prepare independent government cost estimates of
sufficient detail and peer review to meet programming objectives of providing assistance
in funding justification for the Government of Japan (GoJ) for the proposed capital
improvements.” NAVFAC PAC went on to state, “Procurement of the capital
improvements will be made directly by GWA [Guam Water Authority] through the Japan
Bank of International Cooperation (JBIC). NAVFAC will not procure the capital
improvements and thus this will not be a FAR procurement, but rather a GWA design
build acquisition. The cost estimates were prepared as programming documents in order
for the Japanese Ministry of Defense (MOD) to prepare budget requests to the GoJ Diet†,
so that funding could be secured for JBIC.”

Our Response
NAVFAC PAC’s comment on the wastewater finding was responsive and we agree with
their reasoning and response. The documentation and plans indicated that the project was
MILCON. Since, NAVFAC PAC is not the procurement agent, there is no finding.

The Under Secretary of the Navy, Commander of Navy
Installations Command, N37 Comments on Finding A: Lack of
Enhanced DOD Emergency Communications and Finding B:
Lack of Enhanced Guam Emergency Communications
The Under Secretary of the Navy (USN), Commander of Navy Installations Command
(CNIC), N37 did not agree with the communications findings A and B. USN, CNIC N37
stated, “JRM [Joint Region Marianas] does not have ownership, authority or management
responsibility over the DoD or Navy Phone systems resident on DoD Installations on
Guam, to include the phone systems and location and number databases.” USN, CNIC
N37 went on to state, “The assignment of responsibility for enhancement to an E911
capability should be assigned to OPNAV N2/N6.”

Our Response
The USN, CNIC N37 comment on the communication findings was responsive and we
agree with their response. Initially, we addressed the findings to the Commander of Joint
Region Marianas, however, since the Navy, OPNAV N2/N6 is responsible for Navy
network and communications investments through centralized coordination, we have
changed our finding to be addressed to OPNAV N2/N6.




†
    Japan's legislative organ is the National Diet, a bicameral parliament.

                                                        78
Deputy Chief of Naval Operations, Information Dominance
(N2/N6) Comments on Finding A: Lack of Enhanced DOD
Emergency Communications and Finding B: Lack of Enhanced
Guam Emergency Communications
The Deputy Chief of Naval Operations, Information Dominance (N2/N6) agreed with the
communications findings A and B. The Deputy Chief of Naval Operations N2/N6 stated,
“I recommend that the current resource sponsor for Guam 911/E911 services, Deputy
Chief of Naval Operations, Fleet Readiness and Logistics, host a working group with key
stakeholders (CNIC and OPNAV N2/N6) , to develop a transition strategy and plan . This
working group should also assess the transfer of all other 911/8911 services and
infrastructure to OPNAV N2/N6. The final product of the working group should be a
Memorandum of Agreement, which addresses the scope of the transfer and clearly
identifies and articulates the requirements and resources that will transition.”

Our Response
The Deputy Chief of Naval Operations, Information Dominance (N2/N6) comments are
responsive and the actions meet the intent of the recommendation.




                                          79
Department of Transportation, Maritime Administration
Comments




                   Click to add JPEG file




                                  80
Click to add JPEG file




               81
Department of the Navy Comments




                  Click to add JPEG file




                                 82
Click to add JPEG file




               83
                           Final Report
                            Reference




                         Deleted




Click to add JPEG file




               84
                           Final Report
                            Reference




                         Deleted




Click to add JPEG file




               85
Click to add JPEG file




               86
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




               87
Click to add JPEG file




               88
Click to add JPEG file




               89
Department of the Navy
Commander, Joint Region Marianas Comments
                                              Final Report
                                               Reference




                                            Revised




                 Click to add JPEG file




                                90
Click to add JPEG file




               91
Department of Navy
Deputy Chief of Naval Operations, Information Dominance
(N2/N6) Comments




                   Click to add JPEG file




                                  92
